<html>
<title> - THE IMPORTANCE OF POLL WORKERS: BEST PRACTICES AND RECOMMENDATIONS</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]



 
                    THE IMPORTANCE OF POLL WORKERS:
                   BEST PRACTICES AND RECOMMENDATIONS

=======================================================================

                                HEARING

                               BEFORE THE

                       SUBCOMMITTEE ON ELECTIONS

                                 of the

                           COMMITTEE ON HOUSE
                             ADMINISTRATION
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               ----------                              

            HEARING HELD IN WASHINGTON, DC, OCTOBER 3, 2007

                               ----------                              

      Printed for the use of the Committee on House Administration


                       Available on the Internet:
   http://www.gpoaccess.gov/congress/house/administration/index.html




                     U.S. GOVERNMENT PRINTING OFFICE

40-365 PDF                 WASHINGTON DC:  2008
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office  Internet: bookstore.gpo.gov Phone: toll free (866)512-1800
DC area (202)512-1800  Fax: (202) 512-2250 Mail Stop SSOP, 
Washington, DC 20402-0001



                   COMMITTEE ON HOUSE ADMINISTRATION

                ROBERT A. BRADY, Pennsylvania, Chairman
ZOE LOFGREN, California              VERNON J. EHLERS, Michigan
  Vice-Chairwoman                      Ranking Minority Member
MICHAEL E. CAPUANO, Massachusetts    DANIEL E. LUNGREN, California
CHARLES A. GONZALEZ, Texas           KEVIN McCARTHY, California
SUSAN A. DAVIS, California
ARTUR DAVIS, Alabama
                 S. Elizabeth Birnbaum, Staff Director
                William Plaster, Minority Staff Director


                       Subcommittee on Elections

                  ZOE LOFGREN, California, Chairwoman
CHARLES A. GONZALEZ, Texas           KEVIN McCARTHY, California
SUSAN A. DAVIS, California           VERNON J. EHLERS, Michigan
ARTUR DAVIS, Alabama


   THE IMPORTANCE OF POLL WORKERS: BEST PRACTICES AND RECOMMENDATIONS

                       WEDNESDAY, OCTOBER 3, 2007

                  House of Representatives,
                         Subcommittee on Elections,
                         Committee on House Administration,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 2:35 p.m., in 
room 2128, Rayburn House Office Building, Hon. Zoe Lofgren 
(chairwoman of the subcommittee) presiding.
    Present: Representatives Lofgren, Davis of California, 
Davis of Alabama, and Ehlers.
    Staff Present: Liz Birnbaum, Staff Director; Thomas Hicks, 
Senior Election Counsel; Janelle Hu, Election Counsel; Jennifer 
Daehn, Election Counsel; Matt Pinkus, Professional Staff/
Parliamentarian; Kyle Anderson, Press Director; Kristin 
McCowan, Chief Legislative Clerk; Daniel Favarulo, Staff 
Assistant, Elections; Matt DeFreitas, Staff Assistant; Gineen 
Beach, Minority Counsel; and Bryan Dorsey, Minority 
Professional Staff.
    Ms. Lofgren. We do welcome all of you to the Subcommittee 
on Elections and the hearing, this hearing, on The Importance 
of Poll Workers: Best Practices and Recommendations.
    The Help America Vote Act reaffirmed the responsibility of 
training poll workers in the hands of the State. HAVA requires 
that each State prepare a plan detailing what it will do to 
implement the new Federal mandates including a description of 
how each State will use HAVA funds to educate election 
officials and poll workers.
    State law and poll worker training and procedures differ 
greatly State to State, and while each State and local 
government has its own issues, there are several problems that 
seem to be common across the board, particularly training and 
recruitment. Some States require little to no training, while 
other States are taking the initiative and using creative means 
such as on-line training or providing specialized tasks and 
multilingual training.
    Poll worker pay is also quite low. It is difficult to 
recruit poll workers when the average daily basic pay is $57, 
and that is for a day that starts before sunrise and ends after 
sunset.
    In addition to training, we must address the compensation 
and incentives issues relative to poll workers. As a result of 
these factors and perhaps others, poll worker morale can be 
quite low. After the 2000 election and subsequent election 
controversies, absenteeism among poll workers has increased, 
and this has led to staffing shortages, polls opening late and 
sometimes as a consequence a disenfranchisement of voters.
    According to a study by electionline.org, 2 million 
Americans serve as poll workers, most with only a few hours of 
specialized instruction. This results in voters and poll 
workers finding polling places understaffed because of no-shows 
or personnel shortages.
    And personnel shortages is not the only issue. Poll workers 
come to work each year finding that the voting equipment 
continues to change. Some jurisdictions have multiple voting 
machines, and they range from electronic machines to optical 
scanners to paperless electronic systems, and, in other States, 
lever systems.
    Recruiting poll workers is an ongoing challenge. NACo 
reports that 56 percent of election officials reported that 
they were unable to fully staff the polls in the last 
Presidential election. The skills needed to serve as a poll 
worker have not changed, while the skills of our--the skills 
needed to serve as a poll worker have changed while the skills 
of many of our poll workers have not. Since 2000 and the 
passage of HAVA, we are asking our poll workers to do more, and 
we may not be doing enough to prepare them for one of the most 
important tasks: administering voting.
    HAVA also required the EAC to conduct studies on methods of 
recruiting, training, and improving the performance of poll 
workers. The EAC just released the study Successful Practices 
in Poll Worker Recruiting, Training, and Retention. This study 
developed best practices based on 17 months of research and was 
implemented through a partnership with several organizations 
including the Poll Worker Institute. This study is essentially 
a snapshot of poll worker recruitment, training and service 
practices across the country.
    Poll workers are the link between election administrators 
and the voters. Unfortunately, they are not being properly 
prepared or compensated for undertaking such an obligation. So 
I am really very excited about today's hearing and to listen to 
what our witnesses have to say.
    Understanding the problems, the challenges, and what State 
and local governments are doing to address the important role 
poll workers play is really essential to improving the American 
election system.
    I thank the witnesses for coming today and would like to 
note that the Secretary of State of Ohio, Jennifer Brunner, was 
unable to make today's hearing, but she has submitted her 
testimony for the record, and, without objection, that 
testimony will be entered into the record.
    [The statement of Ms. Brunner follows:]
    [GRAPHIC] [TIFF OMITTED] 40365A.001
    
    [GRAPHIC] [TIFF OMITTED] 40365A.002
    
    [GRAPHIC] [TIFF OMITTED] 40365A.003
    
    [GRAPHIC] [TIFF OMITTED] 40365A.004
    
    [The statement of Ms. Lofgren follows:]
    [GRAPHIC] [TIFF OMITTED] 40365A.005
    
    [GRAPHIC] [TIFF OMITTED] 40365A.006
    
    Ms. Lofgren. At this point I am sure Mr. Ehlers is on his 
way. I don't know if Mr. Davis has an opening statement, and 
perhaps I believe we could go to the testimony, and Mr. Ehlers 
can give his statement when he arrives.
    So I would like to introduce the witnesses who are here 
today. We have Michael Mauro, the Iowa secretary of state. Mr. 
Mauro was elected Iowa's 30th secretary of state on November 
7th, 2006. Prior to his election as secretary of state, he has 
served the residents of Polk County for nearly a decade as 
county auditor. As auditor for the largest of Iowa's 99 
counties, Mauro streamlined services to make the auditor's 
office user friendly. As a former high school government 
teacher and coach, he has shown his commitment to Iowa's youth. 
He often speaks to youth and civic groups about the importance 
of voting, voter education, and election reform.
    Secretary Mauro is a voting member of the Iowa Executive 
Council and the Chair of the State Voter Registration 
Commission. He is also a member of the National Association of 
Secretaries of State. In 2003, he earned the designation of 
certified election registration administrator, the highest 
professional achievement in the field of election 
administration.
    I would also like to introduce Lance Gough, the executive 
director of the Chicago Board of Election Commissioners. He is 
the executive director of the Commissioners for the City of 
Chicago. They administer the elections and related day-to-day 
operations of one of the largest election authorities in the 
United States, serving 1.4 million registered voters in the 
City of Chicago's 2,605 precincts. It is like a whole country 
there.
    In 2008, he will have served 20 years in the Chicago 
Election Board's top administrative post. And prior to his 
appointment to the Chicago Election Board, he was a computer 
consultant in private industry for 3 years specializing in 
automated election tallying equipment. He also worked for the 
Chicago Board of Election Commissioners from 1976 to 1985 
including as manager of the Board's electronic voting system 
operation.
    An active member of several professional groups, he is past 
president of the International Association of Clerks, 
Recorders, Election Officials and Treasurers; also past 
president of the Association of Election Commission Officials 
of Illinois; and a member of the Election Center.
    Next, I would like to introduce Jennifer Collins-Foley. She 
is the president of the Policy Workers Institute and has served 
in the field of developing and managing international and 
domestic democratic governance programs, training and voter 
registration outreach education programs for more than 18 
years.
    Ms. Collins-Foley has consulted on election administration 
and policy for the League of Women Voters, the EAC, the 
Election Center and the PEW Research. Last year she managed a 
17-month applied research project with the U.S. Election 
Assistance Commission and IFES titled Successful Practices in 
Poll Worker Recruiting, Training and Retention.
    She currently serves as the principal investigator of an 
applied research project with the U.S. Election Assistance 
Commission on government-sponsored voter hotlines in the U.S.
    As a consultant for the International Foundation for 
Election Systems, she developed poll worker training materials, 
training curriculum, and election management recommendations 
for numerous States as well as overseas countries.
    As a consultant with Los Angeles County in 2006, she served 
as a strategic change management, poll worker management and 
HAVA consultant on implementation of new electronic voting 
systems.
    And finally, we welcome Helen Purcell, the Maricopa County 
recorder and the Minority's witness. She was elected to the 
Office of Maricopa County Recorder in November of 1988 and is 
now serving her fifth term and is the second woman to hold this 
position since 1871.
    Born in Topeka, Kansas, she has been a Phoenix resident 
since 1964. She began her business career with T.J. Betts 
Mortgage Company in Texas, subsequently becoming a real estate 
trust officer with Stuart Title and Trust of Phoenix.
    She has been a member of the board of directors of the 
National Association of Counties, serving since December of 
1997. She is a co-chair of the electronic recording committee 
of the Property Records Industry Association; a member of the 
board of directors of the Kids Voting Arizona, a group I once 
was involved in in California; a member of the National 
Association of County Recorders and Clerks and the 
International Association of Clerks, Recorders, Election 
Officials and Treasurers.
    In May of 1998, she received the National Kids Voting 
Excellence Award. In October of 2002, she was appointed to 
serve on NACo's telecommunications and technology steering 
committee, and in 2003, was appointed by the president of NACo 
to the U.S. Election Assistance Commission Board of Advisors.
    In June of 2004, she was appointed by the Chairman of the 
U.S. Election Assistance Commission to the newly formed 
Technical Guidelines Development Committee. Its purpose is to 
draft standards for all voting systems in the U.S.
    She was appointed at NACo's 2005 annual conference as vice 
chair of NACo's member program and services committee, and 
Chair of the technology subcommittee of the telecommunications 
and technology steering committee.
    Obviously, we have four very distinguished witnesses who we 
will look forward to hearing from after we invite the Ranking 
Member, who has now arrived, to make any opening statement that 
he may wish to make.
    Mr. Ehlers. I apologize for being late, but you know what 
it is like when people from this committee are on the floor 
voting. Everyone asks questions about getting their leg changed 
and so forth.
    It is a pleasure to be here. I thank you for being here and 
for your comments, and especially for holding this meeting. And 
I certainly welcome all of the witnesses here.
    When we talk about elections, we always tend to concentrate 
on technology and process and so forth. But those of you who 
have been here a long time know how often I have raised the 
issue that the important factor is the poll workers, and I have 
been impressed over the years I have held local office, county 
commission office, and I chaired the county commission. So I 
participated very directly in a number of elections. And there 
was just--I was just always amazed by the dedication of the 
poll workers, people who come and work under bad conditions, 
very often drafty schools' hallways, and just stick it out 
until the very end. Poll workers are on the front line, and I 
have always found them to be very dedicated.
    However, we face a number of new challenges in this area, 
and I appreciate you calling a meeting.
    The typical poll worker that people envision in their mind 
is an 85-year-old woman who just doesn't do that much, doesn't 
have a job, but turns out faithfully for every election. Those 
days are--if they ever were around--are certainly disappearing, 
and we have a whole new problem to deal with, and that is 
training new poll workers, getting them introduced to working 
in a job that is not highly paid, that requires tremendous 
dedication, often abuse from the public. And so I think we 
should be very much aware of what is going to happen.
    I have often raised the point here, and I am afraid I have 
alienated some of our other committee members at times, in 
talking about the problems of running local elections and how 
important it is to do it properly and to rely on the experience 
of the county clerks, city clerks, poll workers and so forth, 
and I firmly believe that.
    I am very interested in learning what our witnesses have to 
say about the most effective methods of training poll workers 
based on practices in their States and localities.
    Another of the challenges that election administrators face 
in preparing workers for the duties on election day is training 
someone to perform a job they will only do for a single day a 
couple of times a year, leaving little time to become familiar 
with the technology and processes.
    And as we passed HAVA, I was acutely aware of what was 
likely to happen and the training that was likely to be 
required to implement HAVA and make sure the poll workers were 
familiar with the processes, the machines and so forth. I am 
very pleased that the election officials in general, poll 
workers specifically, handled that transition very well.
    Secondly, I would like to get a sense from our witnesses as 
to how existing Federal voting laws are working at the State 
and local level. HAVA has been in place for a little while. We 
have had some problems, lots of success. And I am very 
interested in hearing from the front lines what is going on.
    Poll workers are relied on to perform a number of duties. 
They must inform voters about using election technology, verify 
the voting eligibility, and assure that the polling place 
operates smoothly. And in each locality, there are most likely 
provisions that are working well and lessons to be learned as 
to what could be improved upon, and it is my hope we will gain 
insight from some of those strengths and weaknesses today from 
our witnesses.
    But particularly a slant that I am interested on this is 
how has HAVA worked; has it made the job more difficult, 
easier? How have people adjusted to the new machines or new 
approaches, and how has it affected the work of the poll 
workers?
    Finally, I would like to know how at the Federal level we 
can best support States and localities in carrying out their 
fundamental mission of facilitating the practice of casting a 
vote in this country. We need to be very careful that in our 
efforts to support our State and local officials, we are not, 
in effect, tying their hands by setting forth overly 
prescriptive regulations on the administration of elections.
    In precincts across the country, there are unique 
circumstances in terms of the geography and population of each 
district making it very difficult for us to effectively create, 
one-size-fits all legislation to cure all of our Nation's 
voting challenges. We would like to get a sense from our 
witnesses as to how we may best assist State and local election 
officials without preventing them from effectively doing their 
job.
    And a good example of what I just talked to you about, the 
unique circumstances, you recall, Madam Chair, when we were in 
New Mexico last year and we heard about the varying systems in 
place in Arizona ranging from very large urban areas such as 
Phoenix to very lightly populated areas such as the Navajo 
Reservations and so on, some of the problems encountered then.
    So I look forward to hearing from you. Thank you for taking 
the time to be here. I appreciate it.
    Ms. Lofgren. Thank you.
    [The statement of Mr. Ehlers follows:]
    [GRAPHIC] [TIFF OMITTED] 40365A.007
    
    [GRAPHIC] [TIFF OMITTED] 40365A.008
    
    [GRAPHIC] [TIFF OMITTED] 40365A.009
    
    Ms. Lofgren. And without objection, the other Members' 
statements will be made a part of the record.
    Ms. Lofgren. I wonder if we can start with Mr. Mauro and 
move down the line. And we have a process here. It is a 5-
minute rule, and we ask that Members, witnesses give their 
statements in about 5 minutes. When there is a minute left, 
that little machine there will turn yellow, and when your time 
is up, it turns red. So we ask when that happens, if you can 
try to all summarize, it will be great, and your full 
statements will be made part of the record.
    So if you could begin, Mr. Mauro. Thank you.

       STATEMENT OF MICHAEL MAURO, SECRETARY OF STATE, IA

    Mr. Mauro. Thank you very much. It is an honor to be here 
today. I am honored to be in front of such a distinguished 
group of people talking about something as important as 
elections.
    I believe this hearing is timely and needed because, as you 
said in your opening statement, I think you set the record 
straight beautifully and took a lot of my comments from me, but 
they are good ones, because it talks about the uncertainty in 
this process. And one of the things I think we all need to 
understand is elections have changed. They have changed across 
this country, and a lot of it happened since the year 2000. A 
lot of it happened because of the Help America Vote Act. But we 
need to think about elections in a different manner on the 
local level. County administrators, county supervisors who fund 
elections need to think about elections differently.
    County officials, county auditors in some States who put on 
elections have to think about the elections differently because 
it has all changed. In many jurisdictions, they have two pieces 
of equipment, a piece of equipment that can be used by both 
disabled and regular voters, and we have DRE machines, we have 
optical scan machines. Some counties use blended equipment. 
This all adds for a big adventure for the election officials 
because our election officials come from a variety of 
backgrounds. Requirements in States dictate what party they 
should be from, how many there should be, and all of those 
types of things that make the process even more difficult to 
put together.
    In many precincts in the United States they use two 
different types of equipment. I could tell you of some 
experiences in Iowa. I will give you an example in the 2004 
elections in Iowa, and I am sure other States have seen the 
same things. In many polling places in Iowa in that last 
Presidential election, we had attorneys from both Presidential 
parties, and then we had the Department of Justice, and then we 
had election officials, many of them retirees, who were trying 
to operate a system in an election in a conscientious manner 
under such tremendous scrutiny, and many of them are 
intimidated with the process. Many of them don't want to do it 
anymore.
    Many of us think the biggest problem in our election system 
today, how we are going to lose elections is through computer 
hacking. I totally disagree. I think they are missing the big 
picture, because the weakest link in our election process is 
adequate training, adequate funding for counties, adequate 
training for poll workers, because when they can't do the job, 
and they aren't trained, and they don't understand it, you got 
some real integrity issues in the election process.
    So we have got a lot of people out there talking about 
different ways elections can be taken away from people. This is 
the biggest one I can see, and it is not anybody's fault. It is 
just that there is too much to absorb in a short period of 
time.
    Despite all of the obstacles, many States are doing a great 
job. In Iowa, I think we have a great election system, and we 
used Help America Vote funds to put it together. And basically 
it worked like this: We initiated a program called SEAT, which 
was basically a program that talked about State Election 
Administrator Training, and we did it in conjunction with Iowa 
State University, the Iowa State Association of Counties, and 
the Iowa State Association of State Auditors.
    And the precinct election officials, we started a 
certification program for them, and it was instituted just last 
year, and we have already trained over 2,000 precinct officials 
statewide. Our goal was to have at least one certified election 
official in each of Iowa's 1,784 precincts. We think we will 
surpass that goal by the November 2008 election.
    The training is broken up into three sessions. Two of the 
sessions you can take at home, or you can come to the class and 
take them. One of them involves on-line use of equipment, how 
to use the equipment.
    We think all of those things are great, and just from 
talking to the election officials, they love it. They want more 
training. They know it is necessary.
    As Secretary of State in Iowa, we have offered precinct 
training on all levels, and it has worked well. The precinct 
officials' training program is limited to 24 officials at a 
time, and everyone gets a chance at performing the various 
duties on hand.
    While this is a step in the right direction, there is still 
a long way to go. Recruitment of election officials is a huge 
hurdle for local election administrators, and turnover is 
extremely high. Many individuals choose to work for candidates 
instead of working at the polls, so you lose a good group of 
people because they are working for the candidate. We can't be 
there, but I will be there to observe the process. So we 
eliminate a lot of knowledgeable people there.
    We have to get workers who will be able to handle the 
technology. Believe me, technology has changed. So they have 
got to be able to handle technology. They have to be able to 
lift equipment.
    We need to explore new ideas in recruiting people, and we 
have all talked about ideas. One of the ones I think that needs 
to be pursued is going into the business community where people 
can use community service time with no penalty to work at the 
polling place.
    We need younger people, with computer technology, who can 
work with the retirees. We definitely don't want to eliminate 
retirees because they are so dedicated to this process, but it 
has become overwhelming to them, so we need to find a good mix, 
and we need to put the training together.
    I can tell you about training. I think everybody does a 
good job at training. Can you train officials in 1 week or in 3 
hours to do an election process of this magnitude? I became 
good at it because I did it for 25 years. Asking someone to 
absorb all of these things in 2- or 3-hour segments or week 
segments is difficult, but that is what we are trying to do, 
and that is what we are trying to make work.
    I am sure other States have good programs, and I said we 
believe we have one of the best, but despite all of the 
available training programs, the bottom line is we cannot 
continue to make this job more difficult each election cycle 
and expect untrained individuals to do the job in a 
professional manner with no mistakes.
    I want to commend the committee for inviting me here today 
and calling attention to such an important issue, establishing 
poll watcher training across this country and the need to make 
improvements.
    Ms. Lofgren. Thank you very much, Mr. Mauro.
    [The statement of Mr. Mauro follows:]
    [GRAPHIC] [TIFF OMITTED] 40365A.010
    
    [GRAPHIC] [TIFF OMITTED] 40365A.011
    
    [GRAPHIC] [TIFF OMITTED] 40365A.012
    
    [GRAPHIC] [TIFF OMITTED] 40365A.013
    
    [GRAPHIC] [TIFF OMITTED] 40365A.014
    
    [GRAPHIC] [TIFF OMITTED] 40365A.015
    
    [GRAPHIC] [TIFF OMITTED] 40365A.016
    
    [GRAPHIC] [TIFF OMITTED] 40365A.017
    
    [GRAPHIC] [TIFF OMITTED] 40365A.018
    
    [GRAPHIC] [TIFF OMITTED] 40365A.019
    
    [GRAPHIC] [TIFF OMITTED] 40365A.020
    
    [GRAPHIC] [TIFF OMITTED] 40365A.021
    
    [GRAPHIC] [TIFF OMITTED] 40365A.022
    
    [GRAPHIC] [TIFF OMITTED] 40365A.023
    
    [GRAPHIC] [TIFF OMITTED] 40365A.024
    
    [GRAPHIC] [TIFF OMITTED] 40365A.025
    
    [GRAPHIC] [TIFF OMITTED] 40365A.026
    
    [GRAPHIC] [TIFF OMITTED] 40365A.027
    
    [GRAPHIC] [TIFF OMITTED] 40365A.028
    
    [GRAPHIC] [TIFF OMITTED] 40365A.029
    
    [GRAPHIC] [TIFF OMITTED] 40365A.030
    
    [GRAPHIC] [TIFF OMITTED] 40365A.031
    
    [GRAPHIC] [TIFF OMITTED] 40365A.032
    
    [GRAPHIC] [TIFF OMITTED] 40365A.033
    
    [GRAPHIC] [TIFF OMITTED] 40365A.034
    
    [GRAPHIC] [TIFF OMITTED] 40365A.035
    
    [GRAPHIC] [TIFF OMITTED] 40365A.036
    
    [GRAPHIC] [TIFF OMITTED] 40365A.037
    
    [GRAPHIC] [TIFF OMITTED] 40365A.038
    
    [GRAPHIC] [TIFF OMITTED] 40365A.039
    
    [GRAPHIC] [TIFF OMITTED] 40365A.040
    
    [GRAPHIC] [TIFF OMITTED] 40365A.041
    
    [GRAPHIC] [TIFF OMITTED] 40365A.042
    
    [GRAPHIC] [TIFF OMITTED] 40365A.043
    
    [GRAPHIC] [TIFF OMITTED] 40365A.044
    
    [GRAPHIC] [TIFF OMITTED] 40365A.045
    
    [GRAPHIC] [TIFF OMITTED] 40365A.046
    
    [GRAPHIC] [TIFF OMITTED] 40365A.047
    
    [GRAPHIC] [TIFF OMITTED] 40365A.048
    
    [GRAPHIC] [TIFF OMITTED] 40365A.049
    
    [GRAPHIC] [TIFF OMITTED] 40365A.050
    
    [GRAPHIC] [TIFF OMITTED] 40365A.051
    
    [GRAPHIC] [TIFF OMITTED] 40365A.052
    
    [GRAPHIC] [TIFF OMITTED] 40365A.053
    
    [GRAPHIC] [TIFF OMITTED] 40365A.054
    
    [GRAPHIC] [TIFF OMITTED] 40365A.055
    
    [GRAPHIC] [TIFF OMITTED] 40365A.056
    
    [GRAPHIC] [TIFF OMITTED] 40365A.057
    
    [GRAPHIC] [TIFF OMITTED] 40365A.058
    
    [GRAPHIC] [TIFF OMITTED] 40365A.059
    
    [GRAPHIC] [TIFF OMITTED] 40365A.060
    
    [GRAPHIC] [TIFF OMITTED] 40365A.061
    
    [GRAPHIC] [TIFF OMITTED] 40365A.062
    
    [GRAPHIC] [TIFF OMITTED] 40365A.063
    
    [GRAPHIC] [TIFF OMITTED] 40365A.064
    
    [GRAPHIC] [TIFF OMITTED] 40365A.065
    
    [GRAPHIC] [TIFF OMITTED] 40365A.066
    
    [GRAPHIC] [TIFF OMITTED] 40365A.067
    
    [GRAPHIC] [TIFF OMITTED] 40365A.068
    
    [GRAPHIC] [TIFF OMITTED] 40365A.069
    
    [GRAPHIC] [TIFF OMITTED] 40365A.070
    
    [GRAPHIC] [TIFF OMITTED] 40365A.071
    
    [GRAPHIC] [TIFF OMITTED] 40365A.072
    
    [GRAPHIC] [TIFF OMITTED] 40365A.073
    
    [GRAPHIC] [TIFF OMITTED] 40365A.074
    
    [GRAPHIC] [TIFF OMITTED] 40365A.075
    
    [GRAPHIC] [TIFF OMITTED] 40365A.076
    
    [GRAPHIC] [TIFF OMITTED] 40365A.077
    
    [GRAPHIC] [TIFF OMITTED] 40365A.078
    
    [GRAPHIC] [TIFF OMITTED] 40365A.079
    
    [GRAPHIC] [TIFF OMITTED] 40365A.080
    
    [GRAPHIC] [TIFF OMITTED] 40365A.081
    
    [GRAPHIC] [TIFF OMITTED] 40365A.082
    
    [GRAPHIC] [TIFF OMITTED] 40365A.083
    
    [GRAPHIC] [TIFF OMITTED] 40365A.084
    
    [GRAPHIC] [TIFF OMITTED] 40365A.085
    
    [GRAPHIC] [TIFF OMITTED] 40365A.086
    
    [GRAPHIC] [TIFF OMITTED] 40365A.087
    
    [GRAPHIC] [TIFF OMITTED] 40365A.088
    
    [GRAPHIC] [TIFF OMITTED] 40365A.089
    
    [GRAPHIC] [TIFF OMITTED] 40365A.090
    
    [GRAPHIC] [TIFF OMITTED] 40365A.091
    
    [GRAPHIC] [TIFF OMITTED] 40365A.092
    
    [GRAPHIC] [TIFF OMITTED] 40365A.093
    
    [GRAPHIC] [TIFF OMITTED] 40365A.094
    
    [GRAPHIC] [TIFF OMITTED] 40365A.095
    
    [GRAPHIC] [TIFF OMITTED] 40365A.096
    
    [GRAPHIC] [TIFF OMITTED] 40365A.097
    
    [GRAPHIC] [TIFF OMITTED] 40365A.098
    
    [GRAPHIC] [TIFF OMITTED] 40365A.099
    
    [GRAPHIC] [TIFF OMITTED] 40365A.100
    
    [GRAPHIC] [TIFF OMITTED] 40365A.101
    
    [GRAPHIC] [TIFF OMITTED] 40365A.102
    
    [GRAPHIC] [TIFF OMITTED] 40365A.103
    
    [GRAPHIC] [TIFF OMITTED] 40365A.104
    
    [GRAPHIC] [TIFF OMITTED] 40365A.105
    
    [GRAPHIC] [TIFF OMITTED] 40365A.106
    
    Ms. Lofgren. Mr. Gough, we would like to hear from you and 
your Chicago experience.

STATEMENT OF LANCE GOUGH, EXECUTIVE DIRECTOR, CHICAGO BOARD OF 
                     ELECTION COMMISSIONERS

    Mr. Gough. Madam Chairwoman, thank you for letting me 
follow the Iowa secretary of state, because he said everything 
I also say.
    But, for the city of Chicago, we have the added 
responsibility of training 14,000 poll workers; that is, 
recruiting and training 14,000 poll workers within about 60 to 
90 days. It is a task that requires what I call the three 
``Ps'': First, we have to come up with a plan; second, we have 
to come up with a partnership; and third, we have to pray--pray 
that we have plenty of resources.
    Planning. We have had a lot of new legislation and we have 
had new equipment. The result is that for the first time in the 
city of Chicago, for this Presidential election, our voters 
will be using a blended system of touch-screen and optical-scan 
voting. This is going to cause quite a few problems, but I 
think that by planning for it, we can handle it.
    Partnership. We have done partnership with other 
organizations. The Mikva Challenge is a group that sponsors a 
project to involve high school students in voting as poll 
workers. We set up a special class for poll workers, classes 
just for high school students, and so far we have recruited as 
many as 900. This election we are planning on over 2,000. So we 
are really looking forward to that.
    We also have a partnership with the Board of Education and 
with the City Colleges of Chicago. City Colleges are a great 
place to recruit our PPAs, our Polling Place Administrators. 
They are not really poll workers, but they are there to handle 
the equipment. As you can see, the equipment is becoming more 
and more complicated. For somebody of my generation, it is a 
little difficult, but my daughter at 17 years old can whiz 
right through it.
    We hire these college students to come in and to set up the 
equipment. As I said, they are not actual poll workers. They do 
nothing but the equipment, and our poll workers love their 
technical help. We hire about 1,900, and we put one in every 
polling place location.
    The other ``P'' is Plenty of resources. What we need to do 
is look to the news media, to get the word out that we need 
poll workers. We need to get the business community geared up 
to allow their people to take off 2 days, a day for training 
and a day to serve as poll workers.
    As you said in your statement, Madam Chairwoman, it is 
very, very difficult to get people to come in and work an 18-
hour day for $150 a day.
    What are we looking to the Federal Government for? We are 
always going to be looking for help. I am going into a city 
budget hearing tomorrow begging for money. Payroll for my 
polling place administrators and for what we call our judges of 
election, is over $1.5 million. A mailing to the residents of 
the city of Chicago informing them of any changes in equipment, 
that is $400,000.
    My budget this year, both city and county funds, is almost 
$31 million. There is a point where the cities and the counties 
will reach their limits and will not be able to fund elections 
adequately. So, again, we look to the Federal Government. We 
did get a bailout with HAVA, and because of the Federal 
Government, we were able to purchase new equipment. We really 
thank you for that, but what we are saying is that we are going 
to need additional help. As I call it, the bucket that used to 
be full is draining and nearly empty. And, as always, we look 
to the Federal Government for help to fill our needs.
    And that completes what I have to say. Thank you.
    Ms. Lofgren. Thank you very much.
    [The statement of Mr. Gough follows:]
    [GRAPHIC] [TIFF OMITTED] 40365A.107
    
    [GRAPHIC] [TIFF OMITTED] 40365A.108
    
    [GRAPHIC] [TIFF OMITTED] 40365A.109
    
    [GRAPHIC] [TIFF OMITTED] 40365A.110
    
    [GRAPHIC] [TIFF OMITTED] 40365A.111
    
    [GRAPHIC] [TIFF OMITTED] 40365A.112
    
    [GRAPHIC] [TIFF OMITTED] 40365A.113
    
    [GRAPHIC] [TIFF OMITTED] 40365A.114
    
    [GRAPHIC] [TIFF OMITTED] 40365A.115
    
    [GRAPHIC] [TIFF OMITTED] 40365A.116
    
    [GRAPHIC] [TIFF OMITTED] 40365A.117
    
    [GRAPHIC] [TIFF OMITTED] 40365A.118
    
    [GRAPHIC] [TIFF OMITTED] 40365A.119
    
    [GRAPHIC] [TIFF OMITTED] 40365A.120
    
    [GRAPHIC] [TIFF OMITTED] 40365A.121
    
    [GRAPHIC] [TIFF OMITTED] 40365A.122
    
    [GRAPHIC] [TIFF OMITTED] 40365A.123
    
    [GRAPHIC] [TIFF OMITTED] 40365A.124
    
    [GRAPHIC] [TIFF OMITTED] 40365A.125
    
    [GRAPHIC] [TIFF OMITTED] 40365A.126
    
    [GRAPHIC] [TIFF OMITTED] 40365A.127
    
    [GRAPHIC] [TIFF OMITTED] 40365A.128
    
    [GRAPHIC] [TIFF OMITTED] 40365A.129
    
    [GRAPHIC] [TIFF OMITTED] 40365A.130
    
    [GRAPHIC] [TIFF OMITTED] 40365A.131
    
    [GRAPHIC] [TIFF OMITTED] 40365A.132
    
    [GRAPHIC] [TIFF OMITTED] 40365A.133
    
    [GRAPHIC] [TIFF OMITTED] 40365A.134
    
    [GRAPHIC] [TIFF OMITTED] 40365A.135
    
    [GRAPHIC] [TIFF OMITTED] 40365A.136
    
    [GRAPHIC] [TIFF OMITTED] 40365A.137
    
    [GRAPHIC] [TIFF OMITTED] 40365A.138
    
    [GRAPHIC] [TIFF OMITTED] 40365A.139
    
    [GRAPHIC] [TIFF OMITTED] 40365A.140
    
    [GRAPHIC] [TIFF OMITTED] 40365A.141
    
    [GRAPHIC] [TIFF OMITTED] 40365A.142
    
    [GRAPHIC] [TIFF OMITTED] 40365A.143
    
    [GRAPHIC] [TIFF OMITTED] 40365A.144
    
    [GRAPHIC] [TIFF OMITTED] 40365A.145
    
    [GRAPHIC] [TIFF OMITTED] 40365A.146
    
    [GRAPHIC] [TIFF OMITTED] 40365A.147
    
    [GRAPHIC] [TIFF OMITTED] 40365A.148
    
    [GRAPHIC] [TIFF OMITTED] 40365A.149
    
    [GRAPHIC] [TIFF OMITTED] 40365A.150
    
    [GRAPHIC] [TIFF OMITTED] 40365A.151
    
    [GRAPHIC] [TIFF OMITTED] 40365A.152
    
    [GRAPHIC] [TIFF OMITTED] 40365A.153
    
    [GRAPHIC] [TIFF OMITTED] 40365A.154
    
    [GRAPHIC] [TIFF OMITTED] 40365A.155
    
    [GRAPHIC] [TIFF OMITTED] 40365A.156
    
    [GRAPHIC] [TIFF OMITTED] 40365A.157
    
    [GRAPHIC] [TIFF OMITTED] 40365A.158
    
    [GRAPHIC] [TIFF OMITTED] 40365A.159
    
    [GRAPHIC] [TIFF OMITTED] 40365A.160
    
    [GRAPHIC] [TIFF OMITTED] 40365A.161
    
    [GRAPHIC] [TIFF OMITTED] 40365A.162
    
    [GRAPHIC] [TIFF OMITTED] 40365A.163
    
    [GRAPHIC] [TIFF OMITTED] 40365A.164
    
    [GRAPHIC] [TIFF OMITTED] 40365A.165
    
    [GRAPHIC] [TIFF OMITTED] 40365A.166
    
    [GRAPHIC] [TIFF OMITTED] 40365A.167
    
    [GRAPHIC] [TIFF OMITTED] 40365A.168
    
    [GRAPHIC] [TIFF OMITTED] 40365A.169
    
    [GRAPHIC] [TIFF OMITTED] 40365A.170
    
    [GRAPHIC] [TIFF OMITTED] 40365A.171
    
    [GRAPHIC] [TIFF OMITTED] 40365A.172
    
    [GRAPHIC] [TIFF OMITTED] 40365A.173
    
    [GRAPHIC] [TIFF OMITTED] 40365A.174
    
    [GRAPHIC] [TIFF OMITTED] 40365A.175
    
    [GRAPHIC] [TIFF OMITTED] 40365A.176
    
    [GRAPHIC] [TIFF OMITTED] 40365A.177
    
    [GRAPHIC] [TIFF OMITTED] 40365A.178
    
    [GRAPHIC] [TIFF OMITTED] 40365A.179
    
    [GRAPHIC] [TIFF OMITTED] 40365A.180
    
    [GRAPHIC] [TIFF OMITTED] 40365A.181
    
    [GRAPHIC] [TIFF OMITTED] 40365A.182
    
    [GRAPHIC] [TIFF OMITTED] 40365A.183
    
    [GRAPHIC] [TIFF OMITTED] 40365A.184
    
    [GRAPHIC] [TIFF OMITTED] 40365A.185
    
    Ms. Lofgren. Ms. Purcell, we would be delighted to hear 
from you.

     STATEMENT OF HELEN PURCELL, RECORDER, MARICOPA COUNTY

    Ms. Purcell. Thank you, Madam Chair, members of the 
committee.
    You have my written testimony which has supporting examples 
of a few of the key points I would like to make today.
    We expect a lot of our poll workers. As you mentioned, 
Madam Chair, they arrive at the polling place before dawn, they 
perform increasingly complicated procedures and serve as a 
gateway to the democratic process for all voters on election 
day.
    We understand that providing training and instructional 
tools to poll workers is critical for a successful election. In 
Maricopa County, 83 percent of our poll workers attended 
training classes for the general election in 2006. Almost 1,000 
workers have obtained premium status by attending an additional 
8 hours of training. Every election, hundreds attend bilingual 
training class, providing language assistance to limited-
English-proficiency voters. Yet training continues to be a 
challenge in conducting the election.
    Training responsibilities fall on the local jurisdictions, 
as they should. Maricopa County has 1,142 polling places and 
hires in excess of 7,000 workers on election day.
    Regardless of the size, there are some essential training 
questions which have universal applications: core curriculum, 
training formats, on-the-job training materials, training 
incentive strategies, and program evaluation.
    The Election Assistance Commission has recently produced a 
Poll Worker Guidebook of professional practices which contains 
a myriad of possible ways to augment an existing program in 
these areas.
    Every poll worker in America needs to get instructions on 
voting equipment operations, polling place procedures, how to 
provide effective voter assistance, sensitivity training 
regarding voters with disabilities, and, of course, security 
issues.
    There is a challenge with the multiple types of equipment 
now present in the polling place as a result of the Help 
America Vote Act. New technology can be daunting to the poll 
workers. But equipment is only a single facet of what a poll 
worker must know.
    The worker must make sure that the voter is in the correct 
polling place, which ballot style the voter is to receive. In 
Arizona, we rely on the worker to implement and uphold our new 
voter-initiative ID requirements. This means advising the voter 
that although they were able to use their passport to prove 
their citizenship when they registered to vote, because it 
doesn't have an address on it, they cannot use it as a proof of 
identity to get a ballot on election day. Voters could easily 
believe that the worker does not understand the ID 
requirements, when, in fact, they are following the strict 
letter of the law.
    Training formats need to take into consideration various 
learning styles. Some learn by doing, others by reading. Still 
others learn by pictures or graphics and hearing the 
information. An effective program is a combination of the 
training formats: providing classroom, video/DVD, on-line and 
written options for potential workers to access the tools they 
need in the time leading up to election day.
    Pre-election training is obviously not enough. Providing 
tools which the workers can utilize on election day as a quick 
guide is critical. A practice that we have found to be 
beneficial is to provide duty cards, a one-page summary of the 
responsibilities of each position in the voting processing 
line.
    If training were mandatory, 1,148 workers hired last 
November in our county would not have been allowed to work. 
Would voters be better served? I think not.
    Prior to serving voters as county recorder, I worked for 
the political party as their poll worker recruitment manager. 
It was not uncommon to lose 100 workers the week before the 
election or even the weekend before. In Arizona, a lot of our 
primary elections fall after--the day after Labor Day, and that 
makes it extremely difficult.
    Regardless of the training strategy that is employed, its 
efficiency must be evaluated and tracked. We survey our workers 
to determine if they felt trained properly for election day, 
and we also have voter assistance surveys available to the 
voter. We received more than 8,000 responses. Over 98 percent 
of the voters responded the workers were helpful. But what 
happens when they are not, or they are either unable or 
unwilling to provide assistance?
    Many jurisdictions get their workers directly from 
political parties and have no ability to dismiss rogue voters 
or retire those who are no longer willing and able to do the 
work. Our jurisdiction has the ability to hire youth workers, 
16- and 17-year-olds, and that has been extremely helpful to us 
with the new equipment, because, as one of the panelists 
mentioned, they can handle that very easily.
    In closing, there is one last element of the training that 
we have not discussed, and that is personal experience of 
working at the polls to determine what goes on at the polls. I 
require that my staff work as poll workers at least once during 
their career. While sitting as a member of the Technical 
Guidelines Committee as we worked on the Voluntary Voting 
System Guidelines to the EAC, the National Institute of 
Standards and Technology not only chaired our committee, but 
provided technical assistance to the production of the 
guidelines. So that they could better understand what is 
required of the workers and the level of their expertise, 
members of the NIST team worked at the polling places. I know 
certain requirements that had been proposed were quickly 
abandoned after they did that.
    I might suggest that you ask your staff if they have served 
as poll workers. I wish that we could get more government 
workers and business people to work at the polls. First-hand 
knowledge is indispensable.
    I would be happy to take any questions. Thank you, Madam 
Chair.
    Ms. Lofgren. Thank you.
    [The statement of Ms. Purcell follows:] 
    [GRAPHIC] [TIFF OMITTED] 40365A.186
    
    [GRAPHIC] [TIFF OMITTED] 40365A.187
    
    [GRAPHIC] [TIFF OMITTED] 40365A.188
    
    [GRAPHIC] [TIFF OMITTED] 40365A.189
    
    [GRAPHIC] [TIFF OMITTED] 40365A.190
    
    [GRAPHIC] [TIFF OMITTED] 40365A.191
    
    [GRAPHIC] [TIFF OMITTED] 40365A.192
    
    [GRAPHIC] [TIFF OMITTED] 40365A.193
    
    [GRAPHIC] [TIFF OMITTED] 40365A.194
    
    [GRAPHIC] [TIFF OMITTED] 40365A.195
    
    [GRAPHIC] [TIFF OMITTED] 40365A.196
    
    [GRAPHIC] [TIFF OMITTED] 40365A.197
    
    [GRAPHIC] [TIFF OMITTED] 40365A.198
    
    [GRAPHIC] [TIFF OMITTED] 40365A.199
    
    [GRAPHIC] [TIFF OMITTED] 40365A.200
    
    [GRAPHIC] [TIFF OMITTED] 40365A.201
    
    [GRAPHIC] [TIFF OMITTED] 40365A.202
    
    [GRAPHIC] [TIFF OMITTED] 40365A.203
    
    [GRAPHIC] [TIFF OMITTED] 40365A.204
    
    [GRAPHIC] [TIFF OMITTED] 40365A.205
    
    [GRAPHIC] [TIFF OMITTED] 40365A.206
    
    [GRAPHIC] [TIFF OMITTED] 40365A.207
    
    [GRAPHIC] [TIFF OMITTED] 40365A.208
    
    [GRAPHIC] [TIFF OMITTED] 40365A.209
    
    [GRAPHIC] [TIFF OMITTED] 40365A.210
    
    [GRAPHIC] [TIFF OMITTED] 40365A.211
    
    [GRAPHIC] [TIFF OMITTED] 40365A.212
    
    [GRAPHIC] [TIFF OMITTED] 40365A.213
    
    [GRAPHIC] [TIFF OMITTED] 40365A.214
    
    [GRAPHIC] [TIFF OMITTED] 40365A.215
    
    [GRAPHIC] [TIFF OMITTED] 40365A.216
    
    [GRAPHIC] [TIFF OMITTED] 40365A.217
    
    [GRAPHIC] [TIFF OMITTED] 40365A.218
    
    [GRAPHIC] [TIFF OMITTED] 40365A.219
    
    [GRAPHIC] [TIFF OMITTED] 40365A.220
    
    [GRAPHIC] [TIFF OMITTED] 40365A.221
    
    [GRAPHIC] [TIFF OMITTED] 40365A.222
    
    [GRAPHIC] [TIFF OMITTED] 40365A.223
    
    [GRAPHIC] [TIFF OMITTED] 40365A.224
    
    [GRAPHIC] [TIFF OMITTED] 40365A.225
    
    [GRAPHIC] [TIFF OMITTED] 40365A.226
    
    [GRAPHIC] [TIFF OMITTED] 40365A.227
    
    [GRAPHIC] [TIFF OMITTED] 40365A.228
    
    [GRAPHIC] [TIFF OMITTED] 40365A.229
    
    [GRAPHIC] [TIFF OMITTED] 40365A.230
    
    [GRAPHIC] [TIFF OMITTED] 40365A.231
    
    [GRAPHIC] [TIFF OMITTED] 40365A.232
    
    [GRAPHIC] [TIFF OMITTED] 40365A.233
    
    [GRAPHIC] [TIFF OMITTED] 40365A.234
    
    [GRAPHIC] [TIFF OMITTED] 40365A.235
    
    [GRAPHIC] [TIFF OMITTED] 40365A.236
    
    [GRAPHIC] [TIFF OMITTED] 40365A.237
    
    [GRAPHIC] [TIFF OMITTED] 40365A.238
    
    [GRAPHIC] [TIFF OMITTED] 40365A.239
    
    [GRAPHIC] [TIFF OMITTED] 40365A.240
    
    [GRAPHIC] [TIFF OMITTED] 40365A.241
    
    [GRAPHIC] [TIFF OMITTED] 40365A.242
    
    [GRAPHIC] [TIFF OMITTED] 40365A.243
    
    [GRAPHIC] [TIFF OMITTED] 40365A.244
    
    [GRAPHIC] [TIFF OMITTED] 40365A.245
    
    [GRAPHIC] [TIFF OMITTED] 40365A.246
    
    [GRAPHIC] [TIFF OMITTED] 40365A.247
    
    [GRAPHIC] [TIFF OMITTED] 40365A.248
    
    [GRAPHIC] [TIFF OMITTED] 40365A.249
    
    [GRAPHIC] [TIFF OMITTED] 40365A.250
    
    [GRAPHIC] [TIFF OMITTED] 40365A.251
    
    [GRAPHIC] [TIFF OMITTED] 40365A.252
    
    [GRAPHIC] [TIFF OMITTED] 40365A.253
    
    [GRAPHIC] [TIFF OMITTED] 40365A.254
    
    [GRAPHIC] [TIFF OMITTED] 40365A.255
    
    [GRAPHIC] [TIFF OMITTED] 40365A.256
    
    [GRAPHIC] [TIFF OMITTED] 40365A.257
    
    [GRAPHIC] [TIFF OMITTED] 40365A.258
    
    [GRAPHIC] [TIFF OMITTED] 40365A.259
    
    [GRAPHIC] [TIFF OMITTED] 40365A.260
    
    [GRAPHIC] [TIFF OMITTED] 40365A.261
    
    [GRAPHIC] [TIFF OMITTED] 40365A.262
    
    [GRAPHIC] [TIFF OMITTED] 40365A.263
    
    [GRAPHIC] [TIFF OMITTED] 40365A.264
    
    [GRAPHIC] [TIFF OMITTED] 40365A.265
    
    [GRAPHIC] [TIFF OMITTED] 40365A.266
    
    [GRAPHIC] [TIFF OMITTED] 40365A.267
    
    [GRAPHIC] [TIFF OMITTED] 40365A.268
    
    [GRAPHIC] [TIFF OMITTED] 40365A.269
    
    [GRAPHIC] [TIFF OMITTED] 40365A.270
    
    [GRAPHIC] [TIFF OMITTED] 40365A.271
    
    [GRAPHIC] [TIFF OMITTED] 40365A.272
    
    [GRAPHIC] [TIFF OMITTED] 40365A.273
    
    [GRAPHIC] [TIFF OMITTED] 40365A.274
    
    [GRAPHIC] [TIFF OMITTED] 40365A.275
    
    [GRAPHIC] [TIFF OMITTED] 40365A.276
    
    [GRAPHIC] [TIFF OMITTED] 40365A.277
    
    [GRAPHIC] [TIFF OMITTED] 40365A.278
    
    [GRAPHIC] [TIFF OMITTED] 40365A.279
    
    [GRAPHIC] [TIFF OMITTED] 40365A.280
    
    [GRAPHIC] [TIFF OMITTED] 40365A.281
    
    [GRAPHIC] [TIFF OMITTED] 40365A.282
    
    [GRAPHIC] [TIFF OMITTED] 40365A.283
    
    [GRAPHIC] [TIFF OMITTED] 40365A.284
    
    [GRAPHIC] [TIFF OMITTED] 40365A.285
    
    [GRAPHIC] [TIFF OMITTED] 40365A.286
    
    [GRAPHIC] [TIFF OMITTED] 40365A.287
    
    [GRAPHIC] [TIFF OMITTED] 40365A.288
    
    [GRAPHIC] [TIFF OMITTED] 40365A.289
    
    [GRAPHIC] [TIFF OMITTED] 40365A.290
    
    [GRAPHIC] [TIFF OMITTED] 40365A.291
    
    [GRAPHIC] [TIFF OMITTED] 40365A.292
    
    [GRAPHIC] [TIFF OMITTED] 40365A.293
    
    [GRAPHIC] [TIFF OMITTED] 40365A.294
    
    [GRAPHIC] [TIFF OMITTED] 40365A.295
    
    [GRAPHIC] [TIFF OMITTED] 40365A.296
    
    [GRAPHIC] [TIFF OMITTED] 40365A.297
    
    [GRAPHIC] [TIFF OMITTED] 40365A.298
    
    [GRAPHIC] [TIFF OMITTED] 40365A.299
    
    [GRAPHIC] [TIFF OMITTED] 40365A.300
    
    [GRAPHIC] [TIFF OMITTED] 40365A.301
    
    [GRAPHIC] [TIFF OMITTED] 40365A.302
    
    [GRAPHIC] [TIFF OMITTED] 40365A.303
    
    [GRAPHIC] [TIFF OMITTED] 40365A.304
    
    [GRAPHIC] [TIFF OMITTED] 40365A.305
    
    [GRAPHIC] [TIFF OMITTED] 40365A.306
    
    [GRAPHIC] [TIFF OMITTED] 40365A.307
    
    [GRAPHIC] [TIFF OMITTED] 40365A.308
    
    [GRAPHIC] [TIFF OMITTED] 40365A.309
    
    [GRAPHIC] [TIFF OMITTED] 40365A.310
    
    [GRAPHIC] [TIFF OMITTED] 40365A.311
    
    [GRAPHIC] [TIFF OMITTED] 40365A.312
    
    [GRAPHIC] [TIFF OMITTED] 40365A.313
    
    [GRAPHIC] [TIFF OMITTED] 40365A.314
    
    [GRAPHIC] [TIFF OMITTED] 40365A.315
    
    [GRAPHIC] [TIFF OMITTED] 40365A.316
    
    [GRAPHIC] [TIFF OMITTED] 40365A.317
    
    [GRAPHIC] [TIFF OMITTED] 40365A.318
    
    [GRAPHIC] [TIFF OMITTED] 40365A.319
    
    [GRAPHIC] [TIFF OMITTED] 40365A.320
    
    [GRAPHIC] [TIFF OMITTED] 40365A.321
    
    [GRAPHIC] [TIFF OMITTED] 40365A.322
    
    [GRAPHIC] [TIFF OMITTED] 40365A.323
    
    [GRAPHIC] [TIFF OMITTED] 40365A.324
    
    [GRAPHIC] [TIFF OMITTED] 40365A.325
    
    [GRAPHIC] [TIFF OMITTED] 40365A.326
    
    [GRAPHIC] [TIFF OMITTED] 40365A.327
    
    [GRAPHIC] [TIFF OMITTED] 40365A.328
    
    [GRAPHIC] [TIFF OMITTED] 40365A.329
    
    [GRAPHIC] [TIFF OMITTED] 40365A.330
    
    [GRAPHIC] [TIFF OMITTED] 40365A.331
    
    [GRAPHIC] [TIFF OMITTED] 40365A.332
    
    [GRAPHIC] [TIFF OMITTED] 40365A.333
    
    [GRAPHIC] [TIFF OMITTED] 40365A.334
    
    [GRAPHIC] [TIFF OMITTED] 40365A.335
    
    [GRAPHIC] [TIFF OMITTED] 40365A.336
    
    [GRAPHIC] [TIFF OMITTED] 40365A.337
    
    [GRAPHIC] [TIFF OMITTED] 40365A.338
    
    [GRAPHIC] [TIFF OMITTED] 40365A.339
    
    [GRAPHIC] [TIFF OMITTED] 40365A.340
    
    [GRAPHIC] [TIFF OMITTED] 40365A.341
    
    [GRAPHIC] [TIFF OMITTED] 40365A.342
    
    [GRAPHIC] [TIFF OMITTED] 40365A.343
    
    [GRAPHIC] [TIFF OMITTED] 40365A.344
    
    [GRAPHIC] [TIFF OMITTED] 40365A.345
    
    [GRAPHIC] [TIFF OMITTED] 40365A.346
    
    [GRAPHIC] [TIFF OMITTED] 40365A.347
    
    [GRAPHIC] [TIFF OMITTED] 40365A.348
    
    [GRAPHIC] [TIFF OMITTED] 40365A.349
    
    [GRAPHIC] [TIFF OMITTED] 40365A.350
    
    [GRAPHIC] [TIFF OMITTED] 40365A.351
    
    [GRAPHIC] [TIFF OMITTED] 40365A.352
    
    [GRAPHIC] [TIFF OMITTED] 40365A.353
    
    [GRAPHIC] [TIFF OMITTED] 40365A.354
    
    [GRAPHIC] [TIFF OMITTED] 40365A.355
    
    [GRAPHIC] [TIFF OMITTED] 40365A.356
    
    [GRAPHIC] [TIFF OMITTED] 40365A.357
    
    [GRAPHIC] [TIFF OMITTED] 40365A.358
    
    [GRAPHIC] [TIFF OMITTED] 40365A.359
    
    [GRAPHIC] [TIFF OMITTED] 40365A.360
    
    [GRAPHIC] [TIFF OMITTED] 40365A.361
    
    [GRAPHIC] [TIFF OMITTED] 40365A.362
    
    [GRAPHIC] [TIFF OMITTED] 40365A.363
    
    [GRAPHIC] [TIFF OMITTED] 40365A.364
    
    [GRAPHIC] [TIFF OMITTED] 40365A.365
    
    [GRAPHIC] [TIFF OMITTED] 40365A.366
    
    [GRAPHIC] [TIFF OMITTED] 40365A.367
    
    [GRAPHIC] [TIFF OMITTED] 40365A.368
    
    [GRAPHIC] [TIFF OMITTED] 40365A.369
    
    [GRAPHIC] [TIFF OMITTED] 40365A.370
    
    [GRAPHIC] [TIFF OMITTED] 40365A.371
    
    [GRAPHIC] [TIFF OMITTED] 40365A.372
    
    [GRAPHIC] [TIFF OMITTED] 40365A.373
    
    [GRAPHIC] [TIFF OMITTED] 40365A.374
    
    [GRAPHIC] [TIFF OMITTED] 40365A.375
    
    [GRAPHIC] [TIFF OMITTED] 40365A.376
    
    [GRAPHIC] [TIFF OMITTED] 40365A.377
    
    [GRAPHIC] [TIFF OMITTED] 40365A.378
    
    [GRAPHIC] [TIFF OMITTED] 40365A.379
    
    [GRAPHIC] [TIFF OMITTED] 40365A.380
    
    [GRAPHIC] [TIFF OMITTED] 40365A.381
    
    [GRAPHIC] [TIFF OMITTED] 40365A.382
    
    [GRAPHIC] [TIFF OMITTED] 40365A.383
    
    [GRAPHIC] [TIFF OMITTED] 40365A.384
    
    [GRAPHIC] [TIFF OMITTED] 40365A.385
    
    [GRAPHIC] [TIFF OMITTED] 40365A.386
    
    [GRAPHIC] [TIFF OMITTED] 40365A.387
    
    [GRAPHIC] [TIFF OMITTED] 40365A.388
    
    [GRAPHIC] [TIFF OMITTED] 40365A.389
    
    [GRAPHIC] [TIFF OMITTED] 40365A.390
    
    [GRAPHIC] [TIFF OMITTED] 40365A.391
    
    [GRAPHIC] [TIFF OMITTED] 40365A.392
    
    [GRAPHIC] [TIFF OMITTED] 40365A.393
    
    [GRAPHIC] [TIFF OMITTED] 40365A.394
    
    [GRAPHIC] [TIFF OMITTED] 40365A.395
    
    [GRAPHIC] [TIFF OMITTED] 40365A.396
    
    [GRAPHIC] [TIFF OMITTED] 40365A.397
    
    [GRAPHIC] [TIFF OMITTED] 40365A.398
    
    [GRAPHIC] [TIFF OMITTED] 40365A.399
    
    [GRAPHIC] [TIFF OMITTED] 40365A.400
    
    [GRAPHIC] [TIFF OMITTED] 40365A.401
    
    [GRAPHIC] [TIFF OMITTED] 40365A.402
    
    [GRAPHIC] [TIFF OMITTED] 40365A.403
    
    [GRAPHIC] [TIFF OMITTED] 40365A.404
    
    [GRAPHIC] [TIFF OMITTED] 40365A.405
    
    [GRAPHIC] [TIFF OMITTED] 40365A.406
    
    [GRAPHIC] [TIFF OMITTED] 40365A.407
    
    [GRAPHIC] [TIFF OMITTED] 40365A.408
    
    [GRAPHIC] [TIFF OMITTED] 40365A.409
    
    [GRAPHIC] [TIFF OMITTED] 40365A.410
    
    [GRAPHIC] [TIFF OMITTED] 40365A.411
    
    [GRAPHIC] [TIFF OMITTED] 40365A.412
    
    [GRAPHIC] [TIFF OMITTED] 40365A.413
    
    [GRAPHIC] [TIFF OMITTED] 40365A.414
    
    [GRAPHIC] [TIFF OMITTED] 40365A.415
    
    [GRAPHIC] [TIFF OMITTED] 40365A.416
    
    [GRAPHIC] [TIFF OMITTED] 40365A.417
    
    [GRAPHIC] [TIFF OMITTED] 40365A.418
    
    [GRAPHIC] [TIFF OMITTED] 40365A.419
    
    [GRAPHIC] [TIFF OMITTED] 40365A.420
    
    [GRAPHIC] [TIFF OMITTED] 40365A.421
    
    [GRAPHIC] [TIFF OMITTED] 40365A.422
    
    [GRAPHIC] [TIFF OMITTED] 40365A.423
    
    [GRAPHIC] [TIFF OMITTED] 40365A.424
    
    [GRAPHIC] [TIFF OMITTED] 40365A.425
    
    [GRAPHIC] [TIFF OMITTED] 40365A.426
    
    [GRAPHIC] [TIFF OMITTED] 40365A.427
    
    [GRAPHIC] [TIFF OMITTED] 40365A.428
    
    [GRAPHIC] [TIFF OMITTED] 40365A.429
    
    [GRAPHIC] [TIFF OMITTED] 40365A.430
    
    [GRAPHIC] [TIFF OMITTED] 40365A.431
    
    [GRAPHIC] [TIFF OMITTED] 40365A.432
    
    [GRAPHIC] [TIFF OMITTED] 40365A.433
    
    [GRAPHIC] [TIFF OMITTED] 40365A.434
    
    [GRAPHIC] [TIFF OMITTED] 40365A.435
    
    [GRAPHIC] [TIFF OMITTED] 40365A.436
    
    [GRAPHIC] [TIFF OMITTED] 40365A.437
    
    [GRAPHIC] [TIFF OMITTED] 40365A.438
    
    [GRAPHIC] [TIFF OMITTED] 40365A.439
    
    [GRAPHIC] [TIFF OMITTED] 40365A.440
    
    [GRAPHIC] [TIFF OMITTED] 40365A.441
    
    [GRAPHIC] [TIFF OMITTED] 40365A.442
    
    [GRAPHIC] [TIFF OMITTED] 40365A.443
    
    [GRAPHIC] [TIFF OMITTED] 40365A.444
    
    [GRAPHIC] [TIFF OMITTED] 40365A.445
    
    [GRAPHIC] [TIFF OMITTED] 40365A.446
    
    [GRAPHIC] [TIFF OMITTED] 40365A.447
    
    [GRAPHIC] [TIFF OMITTED] 40365A.448
    
    [GRAPHIC] [TIFF OMITTED] 40365A.449
    
    [GRAPHIC] [TIFF OMITTED] 40365A.450
    
    [GRAPHIC] [TIFF OMITTED] 40365A.451
    
    [GRAPHIC] [TIFF OMITTED] 40365A.452
    
    [GRAPHIC] [TIFF OMITTED] 40365A.453
    
    [GRAPHIC] [TIFF OMITTED] 40365A.454
    
    [GRAPHIC] [TIFF OMITTED] 40365A.455
    
    [GRAPHIC] [TIFF OMITTED] 40365A.456
    
    [GRAPHIC] [TIFF OMITTED] 40365A.457
    
    [GRAPHIC] [TIFF OMITTED] 40365A.458
    
    [GRAPHIC] [TIFF OMITTED] 40365A.459
    
    [GRAPHIC] [TIFF OMITTED] 40365A.460
    
    [GRAPHIC] [TIFF OMITTED] 40365A.461
    
    [GRAPHIC] [TIFF OMITTED] 40365A.462
    
    [GRAPHIC] [TIFF OMITTED] 40365A.463
    
    [GRAPHIC] [TIFF OMITTED] 40365A.464
    
    [GRAPHIC] [TIFF OMITTED] 40365A.465
    
    [GRAPHIC] [TIFF OMITTED] 40365A.466
    
    [GRAPHIC] [TIFF OMITTED] 40365A.467
    
    [GRAPHIC] [TIFF OMITTED] 40365A.468
    
    [GRAPHIC] [TIFF OMITTED] 40365A.469
    
    [GRAPHIC] [TIFF OMITTED] 40365A.470
    
    [GRAPHIC] [TIFF OMITTED] 40365A.471
    
    [GRAPHIC] [TIFF OMITTED] 40365A.472
    
    [GRAPHIC] [TIFF OMITTED] 40365A.473
    
    [GRAPHIC] [TIFF OMITTED] 40365A.474
    
    [GRAPHIC] [TIFF OMITTED] 40365A.475
    
    [GRAPHIC] [TIFF OMITTED] 40365A.476
    
    [GRAPHIC] [TIFF OMITTED] 40365A.477
    
    [GRAPHIC] [TIFF OMITTED] 40365A.478
    
    [GRAPHIC] [TIFF OMITTED] 40365A.479
    
    [GRAPHIC] [TIFF OMITTED] 40365A.480
    
    [GRAPHIC] [TIFF OMITTED] 40365A.481
    
    [GRAPHIC] [TIFF OMITTED] 40365A.482
    
    [GRAPHIC] [TIFF OMITTED] 40365A.483
    
    [GRAPHIC] [TIFF OMITTED] 40365A.484
    
    [GRAPHIC] [TIFF OMITTED] 40365A.485
    
    [GRAPHIC] [TIFF OMITTED] 40365A.486
    
    [GRAPHIC] [TIFF OMITTED] 40365A.487
    
    [GRAPHIC] [TIFF OMITTED] 40365A.488
    
    [GRAPHIC] [TIFF OMITTED] 40365A.489
    
    [GRAPHIC] [TIFF OMITTED] 40365A.490
    
    [GRAPHIC] [TIFF OMITTED] 40365A.491
    
    [GRAPHIC] [TIFF OMITTED] 40365A.492
    
    [GRAPHIC] [TIFF OMITTED] 40365A.493
    
    [GRAPHIC] [TIFF OMITTED] 40365A.494
    
    [GRAPHIC] [TIFF OMITTED] 40365A.495
    
    [GRAPHIC] [TIFF OMITTED] 40365A.496
    
    [GRAPHIC] [TIFF OMITTED] 40365A.497
    
    [GRAPHIC] [TIFF OMITTED] 40365A.498
    
    [GRAPHIC] [TIFF OMITTED] 40365A.499
    
    [GRAPHIC] [TIFF OMITTED] 40365A.500
    
    [GRAPHIC] [TIFF OMITTED] 40365A.501
    
    [GRAPHIC] [TIFF OMITTED] 40365A.502
    
    [GRAPHIC] [TIFF OMITTED] 40365A.503
    
    [GRAPHIC] [TIFF OMITTED] 40365A.504
    
    [GRAPHIC] [TIFF OMITTED] 40365A.505
    
    [GRAPHIC] [TIFF OMITTED] 40365A.506
    
    [GRAPHIC] [TIFF OMITTED] 40365A.507
    
    [GRAPHIC] [TIFF OMITTED] 40365A.508
    
    [GRAPHIC] [TIFF OMITTED] 40365A.509
    
    [GRAPHIC] [TIFF OMITTED] 40365A.510
    
    [GRAPHIC] [TIFF OMITTED] 40365A.511
    
    [GRAPHIC] [TIFF OMITTED] 40365A.512
    
    [GRAPHIC] [TIFF OMITTED] 40365A.513
    
    [GRAPHIC] [TIFF OMITTED] 40365A.514
    
    [GRAPHIC] [TIFF OMITTED] 40365A.515
    
    [GRAPHIC] [TIFF OMITTED] 40365A.516
    
    [GRAPHIC] [TIFF OMITTED] 40365A.517
    
    [GRAPHIC] [TIFF OMITTED] 40365A.518
    
    [GRAPHIC] [TIFF OMITTED] 40365A.519
    
    [GRAPHIC] [TIFF OMITTED] 40365A.520
    
    [GRAPHIC] [TIFF OMITTED] 40365A.521
    
    Ms. Lofgren. And Ms. Collins-Foley, we would love to hear 
from you.

STATEMENT OF JENNIFER COLLINS-FOLEY, PRESIDENT, THE POLLWORKER 
                           INSTITUTE

    Ms. Collins-Foley. Thank you for this opportunity to appear 
before you.
    I have worked in elections administration, and particularly 
with the focus on poll worker issues, for more than 11 years, 
including serving as assistant registrar of voters in Los 
Angeles County for 8 years, where I was responsible for 
recruiting and training 25,000 poll workers and another 4,000 
rovers and coordinators just to get us through our major 
elections.
    Since leaving Los Angeles County 4 years ago, I have been 
fortunate to work in a number of elections administration 
initiatives, and one of the projects that I have been most 
proud of and felt most honored to be selected to work on was 
the Election Assistance Commission's successful practices for 
poll worker recruitment, training, and retention. This was a 
17-month project, as the chairman said in the beginning, that 
focused on a collection of practices that do work.
    So this was a very proactive effort, not talking about all 
of the horror stories of the elections, but what people are 
doing across the country that does work. And the election 
commission, I have a set here, and I have some more if anybody 
would like to see them. There is also a compendium of laws as 
they relate to poll worker requirements across the country and 
a guidebook for recruiting college poll workers as well.
    And there are so many challenges in poll workers, as we 
have talked about already. There is also a number of 
opportunities. And so I would like to talk briefly about the 
challenges, and then I think we will maybe have to move on to 
the opportunities in the questions period.
    We used to be able to recruit 1.4 to 2 million poll workers 
across this country very easily. In some places that is rather 
easy. It seems that in smaller municipalities, people have a 
cadre of poll workers who show up to the polls who are very 
effective; they are reliable. And then there are other larger 
jurisdictions where we sadly have a funny joke that says we use 
the breathing test, which means if they are breathing, they are 
hired, the poll worker is hired. And that is a really sad joke 
because it has been around for about 40 years, and we are still 
dealing with it. And we get so desperate before major 
elections. In L.A. It is not uncommon to be down 2- to 3,000 
poll workers in the weeks before a major election. And if we 
can get those bodies, as we call them, we have no idea who they 
are, but if we can get those bodies, and we just hope they can 
come into training before the election. Pretty scary.
    On top of the challenge of trying to bring back our veteran 
poll workers, the people who have served us so well for so many 
years, we face the challenge of people retiring, people getting 
too elderly to serve at the polls, being afraid of the 
technology, being afraid of the massive amounts of paperwork 
that are necessary to run a polling place.
    There is also the primary elections which are so 
complicated they scare off poll workers; frequent election poll 
worker burnout, and a problem we call location, location, 
location, which means that you can get people to serve in their 
home precincts, but they will not be willing to serve out of 
their precincts when that is really where they are needed.
    As Secretary of State Mauro said, we have an incredibly 
changing election environment in which election officials find 
that they need people with different skills. We need bilingual 
poll workers who can serve the limited-English-proficiency 
voters. We need poll workers who are comfortable with the 
technology that is changing. We need poll workers who are 
almost auditors and bookkeepers on election day to fill out all 
of the forms and make all of the signatures. Provisional 
voting, voting ID procedures, all of these are incredibly 
complex procedures that are scaring off some of our regular 
poll workers.
    There is also opportunities. We were fortunate in working 
with the EAC project to study a number of creative recruiting 
strategies, and these strategies are bringing a new skill set 
into the polling place. They are bringing youth, they are 
bringing energy, they are bringing techno-savvy poll workers 
in, they are bringing bilingual poll workers in. As Ms. Purcell 
said, they are bringing people who have been trained in 
customer service standards for serving voters with 
disabilities.
    And there are also--for larger jurisdictions, there are 
also multiplier programs. So instead of recruiting one by one 
by one poll workers that used to work, we can now say to a 
teacher, Can you give me 30; to a county manager, Can you give 
me 100. And in Los Angeles County where I am still doing some 
consulting work, we have 3,000 county employees that we hope to 
have 8,000 next year because we have got three major elections 
next year. And we have 3,000 students, and we are hoping to get 
6,000. I think we are going to make our match, and we are going 
to need to make our goals next year to survive, especially the 
two primaries that nobody wants to work.
    In terms of conducting poll worker training, that is 
another big challenge that has a lot of opportunities. Most 
poll worker training programs have had to be reinvented since 
HAVA because the procedures are becoming more complex, and 
often poll workers will walk out of a training class and quit 
because it is too much for them.
    There are some opportunities. If we take things from the 
field of adult learning, we can really change our polling 
places, our polling place training around. Things like hands-on 
training, things like really well done PowerPoint programs. If 
we can assess who comes to our training and whether they are 
really getting it, and, you know, in some places they have 
these kinds of tools. They have the ability to talk to adult 
learners, they have the ability to have fancy systems to track 
who they are bringing in and who they don't want to bring back, 
and other people are actually managing this from the back of 
index cards.
    And I think probably we will get into some findings and 
recommendations.
    Ms. Lofgren. Thank you very much.
    [The statement of Ms. Collins-Foley follows:] 
    [GRAPHIC] [TIFF OMITTED] 40365A.522
    
    [GRAPHIC] [TIFF OMITTED] 40365A.523
    
    [GRAPHIC] [TIFF OMITTED] 40365A.524
    
    [GRAPHIC] [TIFF OMITTED] 40365A.525
    
    [GRAPHIC] [TIFF OMITTED] 40365A.526
    
    [GRAPHIC] [TIFF OMITTED] 40365A.527
    
    [GRAPHIC] [TIFF OMITTED] 40365A.528
    
    [GRAPHIC] [TIFF OMITTED] 40365A.529
    
    [GRAPHIC] [TIFF OMITTED] 40365A.530
    
    [GRAPHIC] [TIFF OMITTED] 40365A.531
    
    [GRAPHIC] [TIFF OMITTED] 40365A.532
    
    Ms. Lofgren. Thank you all of you for your testimony and 
your willingness to volunteer your experience and expertise 
with us and the Congress as we look at this important issue.
    This is now the time when Members can question the 
witnesses for as long as 5 minutes, and I would like to defer 
on my time to Mr. Davis, who I know has other obligations.
    Mr. Davis. Thank you, Madam Chairwoman.
    Let me thank the panel for coming.
    Let me direct the first question to the three election 
officials that are here, Mr. Mauro, Mr. Gough and Ms. Purcell.
    In any of your jurisdictions, which I guess are Iowa, 
Chicago and Maricopa County, Arizona, do any of your 
jurisdiction document the number of complaints or errors that 
you detect related to poll workers?
    Beginning with you, Mr. Mauro.
    Mr. Mauro. I know in my previous experience I served in the 
county--yes. In Polk County where I served as a county 
commissioner and county auditor before I was elected secretary 
of state, we did document those, and it becomes quite 
extensive.
    Let me tell you what a typical day on an election in Iowa 
is like, on a Presidential election day or gubernatorial 
election day. People will turn their radios or TVs on, and the 
first thing they get from the radio commentator is, Call this 
number if you have a problem with the polls. You know, Call us, 
let us know. Don't call the election commissioner. Let us know 
so we can send our investigative teams to the polls.
    And we try to monitor these types of things. And many of 
the problems that take place at the polling places are not 
being able to identify the proper person at the proper polling 
place. They go to an incorrect polling place, they don't have 
their voter identification card with them, or they can't 
ascertain where they should be, and we try to document those, 
and a lot of times we get calls to our office. But it becomes a 
very stressful situation.
    Mr. Davis. Plug a number out of the air for me so I can 
understand this quantitatively. Typical election cycle in the 
State of Iowa in 2006, give me a ballpark number of how many 
problems or potential errors you detected.
    Mr. Mauro. I can only speak for Polk County. We had 
probably 270,000 people who participated in the election that 
day, and we probably took somewhere around 1,500 calls from 
different people about incorrect polling places, not being in 
the poll book, those types of issues that we documented during 
that course. They had to vote provisional ballots. Most of our 
instances come where people go, their name is not in the book, 
and they have to vote provisional ballot.
    Mr. Davis. Mr. Gough, give me an estimate in how often in 
the 2006 elections in Chicago there were reported instances of 
poll worker error.
    Mr. Gough. We have what we call our ``hotline'', which is 
manned by 100 staff, attorneys, and employees that we have 
hired. Out of a turnout of about 700,000 people that came to 
the polls, there were from 1,300 to 5,000 calls.
    But, we have investigators out in the field; and, as soon 
as we get a call, we send an investigator out. If there is a 
problem with a poll worker, we will remove that poll worker on 
that day. We will get a court order to remove that poll worker 
and replace him with another one.
    We have a group of 300 poll workers that we have on standby 
to put them in different polling places in case there is a 
problem.
    Mr. Davis. So 1,300 to 5,000 complaints of errors or 
problems?
    Mr. Gough. Problems that we investigate.
    Mr. Davis. Ms. Purcell, give me a similar quantitative 
number.
    Ms. Purcell. Thank you, Madam Chair and Mr. Davis.
    We have very few calls about the poll worker error. There 
are a number of things that happen in the polling places. We 
have already in the field a number of troubleshooters who are 
out there. Their duty is to take five to six polling places, 
and they circle among those polling places all day.
    So a lot of those problems are solved. But we, too, have a 
hotline that they can call into. We document all of those 
issues that come into the hotline, and we do a report of that 
afterwards so that we can analyze what went wrong and what we 
need to do in that polling place.
    Mr. Davis. Let me tell you all why I asked that question.
    Mr. Mauro, you talked about the kind of complaints you get 
regarding problems, questions on election day. 2006 in the 
State of Iowa, how many complaints did you detect regarding 
voter ID problems, people who indicated that they are John 
Jones, and they are really Mary Smith and claim to be somebody 
else at the polling place?
    Mr. Mauro. Very, very, very few.
    Mr. Davis. I am going to go quickly.
    Mr. Gough, 2006 election cycle, Chicago, how many 
complaints did you get indicating that there were voter ID 
problems, someone who is John Jones claiming to be Mary Smith?
    Mr. Gough. Hardly any at all.
    Mr. Davis. Same question.
    Ms. Purcell. My comment would be the same. Hardly any.
    Mr. Davis. That is an important point, Madam Chairwoman, 
because as a lot of you know, the Supreme Court will have a 
case in the next 45 days in voter ID in which voter ID laws 
will be constitutionally problematic. There has been a huge 
controversy, legally and politically, around these issues, and 
I am struck that there is being a lot of energy being expended 
in many States for the need for voter ID laws when the 
empirical problem appears to be very limited, according to all 
three of you, when I hear and see very little energy being 
expended around the problem you all identify.
    Am I correct to see that contradiction?
    Mr. Mauro. You are absolutely correct. Most of our issues--
none were dealing with voter identification problems.
    Mr. Davis. Am I correct to see a contradiction there?
    Mr. Gough. You are correct.
    Ms. Purcell. We already have voter ID requirements in our 
State, so we have to implement those now, but anybody that 
comes into the polls, either give them the right to vote a 
provisional ballot, or they can vote a conditional provisional 
if they don't provide the proper ID.
    Mr. Davis. All right. Thank you.
    Ms. Lofgren. I would like to recognize the Ranking Member 
for his 5 minutes of questions.
    Mr. Ehlers. First of all, just on that last comment, I 
don't know if the survey gives an accurate number, because if 
you are not checking photo IDs, how do you know if you have 
photo ID problems? So I don't think there are any conclusions 
that you can draw from that little interrogation.
    Let me note a couple of things. First of all, Ms. Purcell, 
you made the comment firsthand knowledge is indispensable, and 
I love that quote because I have been telling my colleagues 
that all the time.
    We in the Congress--those of us who don't have firsthand 
experience are making some judgements about the voting process 
that I think are inaccurate, and that is why we have to depend 
on experts like you to come in and try to clarify the issue.
    And, Mr. Gough, you made the comment at the end of your 
testimony that we always look to the Federal Government for 
help, and I quite often will start out my speeches at home 
saying, I am from the Federal Government, and I am here to help 
you, which is always good for a laugh.
    I don't know how much you get from us. We try. But if you 
are looking for money, I would point out that our budget 
deficit this year is certainly far greater than the total 
budget of Chicago. So I am not sure how much help we can give 
you. We will certainly try to meter HAVA obligations, and if we 
pass H.R. 11, we will have to meet that monetary obligation.
    But I don't think you are going to get too much beyond 
that.
    Ms. Collins-Foley, I was fascinated. First of all, I 
appreciate your quote that you need different training levels 
for different jobs. And too often we lump all poll workers 
together. I think most of the problems--in fact, when you were 
asked about the problems and the number of problems, in my 
observations, in polls, most of the problems are not caused by 
the poll workers, but by the voter. And I am fascinated by one 
little statistic in Los Angeles in the last Presidential 
election: 3,616 voters in Los Angeles all made precisely the 
same mistake in voting for President, and that is a lot for one 
particular mistake. Others made other mistakes.
    But I was fascinated with your comments, and I would like 
to talk to you one on one with you after this just to get some 
more of your ideas. I am very interested in your research, and 
that is probably my scientific background.
    Secretary of State Mauro, you appear to have a lot of 
experience, and obviously running statewide is important. I 
assume you are familiar with H.R. 811, a bill that is in the 
Congress and which currently is on the floor waiting action.
    How would this legislation impact your State's and other 
States' poll worker training programs? And also related to that 
is what opinion--what role should the Federal Government have 
in poll worker training systems?
    Mr. Mauro. H.R. 811, I am glad you asked it because it is 
going to affect all of the States. It is going to affect Iowa 
greatly, too, because it calls for a lot of comprehensive 
changes that will affect poll workers, and the biggest one is 
going to be with uncertainty of equipment.
    In Iowa, we used our Help America Vote funds to buy new 
equipment, and we have a blended system there. We have optical 
scans, we have DREs. We just passed paper trail legislation. We 
are going to be putting V-Pats on all the DREs; and with some 
of the things that are taking place with H.R. 811, the funding 
that we have and we are going to use for that is going to be 
useless by the time we get to 2010 or 2012.
    So I think the intent of the bill is to provide voter 
integrity and provide a paper trail. I like all of those 
things. The uncertainty it is creating in Iowa and other States 
with the equipment issues, what do we buy, what is certified, 
how do we get through the certification process, what do we do 
with the money, do we spend money now because it won't be any 
good 2 years from now, those are creating havoc.
    In addition to all of that, we have to train poll workers 
on how they put the V-Pat, the attachment that will go on some 
of these DREs, how they work, what happens when the paper roll 
runs out. I am telling you that the intent is good. There are 
nightmare ramifications that can come from this. That is my 
feeling.
    Mr. Ehlers. Is part of the problem the time line in the 
bill that would require it to be in effect?
    Mr. Mauro. The time line is an important part of the bill 
because it is asking a lot of people to do things in a time 
where the vendors--one of the things nobody talked about is the 
vendors that are out there can't even supply it. Nor can they 
supply it, they don't have people to even train us on it. You 
talk about finding poll workers, they are going out the street 
and hiring people off the street, bringing them in 2 or 3 days 
for training, and say, Now go train the election officials.
    This is the madness that is being created here. There is 
not that many people supplying election equipment across this 
country, and then they have to go through a certification 
process, and they have to come through the State certification 
process, and time is up. And in the meantime, we are trying to 
figure out what kind of plans do we make for 2008, because we 
have a verified paper trail in Iowa. We need to get these 
attachments on there, and what we are going to buy in 2008, is 
it going to be more money we are going to need in 2010? I think 
so. Is it going to be more money than we need in 2012. I think 
so.
    All of these things are adding up into a real dilemma.
    Mr. Ehlers. Putting aside the time problem, which I think 
is a huge problem, and we probably will not get the bill done 
in time for that to even be a real problem for you, one other 
issue in the bill that I am very concerned about and I would 
like your opinion on, and that is where it specifies that in 
case of a recount, the vote of record is the paper trail.
    Now, as I said, I have been involved in local elections 
enough. My alternative that I have tried to get entered into 
the bill, and so far it has failed, is that that choice of 
which is the most accurate record should be left up to the 
local and State election officials on the site, so if it 
appears that the paper trail is the most accurate, that should 
be chosen. If it appears the electronic record is more 
accurate, that should be chosen. Or if there is some other 
backup method, there are other backup methods besides paper 
which could be instituted by local governments.
    What is your opinion?
    Ms. Lofgren. The gentleman's time is expired, and, by 
unanimous consent, he is granted additional 2 minutes.
    Mr. Mauro. I think that the idea is good by allowing those 
different avenues to get a paper trail, but that will never be 
accepted in any State. Most of the States want--most of the 
voter integrity groups or legislative groups want the actual 
paper roll to be used for the recount.
    Now, I am telling you what is going to happen with the 
paper roll: They are going to get jammed. They are not going to 
print correctly. They are not going to get turned off 
correctly. The election officials are going to have to replace 
the rolls in the middle of the day when they run out. That is 
what they want to use, they better have an alternate plan for 
when--and in most States they are putting in an alternate plan 
for when that doesn't work.
    So the intent is good. The ramifications of this intent 
without the proper training, without the proper vendors putting 
it in place, that is going to create the issues.
    So I would like to think you could choose one, two or 
three, but I don't think anybody is going to let that happen. I 
think for the most part everybody is going is to say, We want 
to have this paper trail. We want to use that roll that the 
voter verified as the recount mechanism, and in a lot of cases, 
they are not going to be able to because it is going to become 
corrupted one way or another through nobody hacking anything. 
It is going to become corrupted on its own recourse, jammed 
paper, election officials not replacing the rolls, all of those 
type of issues, and that is what I see the scenario being.
    Mr. Ehlers. Thank you. And, you know, that is exactly why I 
want you to make the choice as to which----
    Mr. Mauro. I think that is a good idea, but I don't think 
that is going to happen.
    Ms. Lofgren. I would now like to take my opportunity to ask 
questions. And getting back to the topic of the hearing, I 
would be interested in anything that we might be able to do 
relative to if there are legal obstacles to the recruiting of 
poll workers who are young.
    It seems to me from some of the experiences we have 
received here that that is a real opportunity for the country. 
They know the technology, they are not afraid, they can get up 
early and work late. Certainly we value our retirees, but to 
augment.
    And the question is are there obstacles that are illegal, 
or are there otherwise obstacles that we could address as a 
Nation to the recruitment of young people that we should know 
about? Any one of you who know the answer to that?
    Mr. Gough. Okay. To recruit high school students, they must 
be honor roll students, have a certain grade point average, and 
be seniors. On the Governor's desk right now in Illinois, there 
is a bill to let juniors serve as poll workers. We look forward 
to having that young group of people serving as poll workers 
because we may have them for several elections.
    The problem is we do not want to get rid of nor do we want 
to slight our senior poll workers. They have been there for 
many years. They do the job. They look forward to it. And, you 
can count on them showing up. You know, sometimes you may not 
be able to count on a young person showing up at 4 o'clock or 5 
o'clock in the morning.
    Ms. Lofgren. Ms. Purcell.
    Ms. Purcell. Yes. We have recently just changed our laws to 
allow us to do 16- and 17-year-olds helping in the polls, and 
it is a dual purpose, and it has given us a dual response.
    They are capable of handling the equipment much more than 
seniors are. They are helpful to them also to carry things. 
There are a lot of things in a polling place that have to be 
lifted, stored, whatever, and a young person can do that.
    We don't find the problem with the 16- and 17-year-olds as 
far as getting up. They seem to be able to do that. We did have 
a little bit of problem with some of our college students 
because they don't readily get up. But when they are allowed by 
their schools to come in and serve, it has been a wonderful 
experience, and we hope to triple it in the coming election.
    Ms. Lofgren. I know, Mr. Mauro, you addressed this in your 
opening.
    Mr. Mauro. I think we need to reach out into the business 
community, because I think what Lance had spoken to earlier 
about young kids, you can't keep them. They are off to college. 
But they are great when you get them there because they have 
intermingled with the retirees and the older people beautifully 
because they appreciate hauling the equipment, running the 
errands, putting the signs up. There are so many things 
involved in a polling place, hanging the signs, carrying out 
the equipment and those type of things.
    So I think to reach out even further to the business 
community to see if we can get people to take some community 
service time to work at the polls.
    Ms. Lofgren. Also, $88 is a lot more to a 16-year-old than 
it might be to a 50-year-old.
    Ms. Collins-Foley.
    Ms. Collins-Foley. The EAC compendium of State poll worker 
requirements is exactly the answer to your question. It goes 
through State by State all of what we saw as impediments to 
creative poll worker recruiting. The age limitations, only half 
the States have passed laws enabling the young folks to serve. 
Residency requirements are a big problem. Only five States to 
date have allowed anybody in the State to serve as a poll 
worker. Everybody else you have to be in the precinct or at 
least in the county, and that means you can't reach out to your 
college students; even if you can get them out of bed, you 
can't even get them. They are not registered in that 
jurisdiction.
    You couldn't get some of your corporate poll workers who--
some jurisdictions have had tremendous success with corporate 
poll worker programs--because of very restrictive political 
party requirements. They have to wait until the political 
parties turn over lists before they can put together their poll 
worker teams.
    There is as much good news as bad news in this compendium 
of requirements, and a lot of that I think Congress can play a 
real role in supporting flexible poll worker recruiting 
requirements.
    Ms. Lofgren. I would be very interested if any of you have 
just suggestions or, especially Ms. Collins-Foley, sort of 
celebrations that we might bring to the attention of various 
legislatures. Sometimes people are unaware of what is going on 
and what has worked in another jurisdiction, and merely sharing 
that information can be a real impetus to change.
    Like the Ranking Member, I served on the board of 
supervisors for a long time and actually longer than I have 
been in Congress, and we oversaw the registrar of voters. But 
in California, as you are aware, this is all civil service. I 
mean, the concept that the political parties would be allowed 
to even touch the process is just anathema in California.
    And so I guess that goes to my next question, which is the 
idea--not every country runs their elections with volunteers as 
we do, and I don't think there is any chance that we will 
change that. But there is a role, and you have mentioned that 
we have recruited county employees for the day or municipal 
employees.
    Do any of you see any downside to soliciting the assistance 
of municipal or county or even State officials for that 
purpose?
    Ms. Purcell. Absolutely none. We recruited at the county 
level with the assistance of our county manager and board of 
supervisors but also at the city and other levels of government 
that they would serve on Election Day. And they do a lot of our 
work at night, on Election night, if they haven't worked during 
the day, and they come in when we are bringing all of our 
equipment in.
    Mr. Gough. We have looked at that in the City of Chicago. 
There has been an issue that some of these people have received 
their jobs through political hiring.
    Ms. Lofgren. That also is different than California.
    Mr. Gough. We don't think it is a good idea to do that, so 
that is something that we do not do.
    Ms. Lofgren. All right.
    Mr. Mauro. In Iowa, basically, a lot of these officials 
that work for government entities are supporting candidates 
that day; if they are taking the day off, they are taking it in 
support of their favorite candidate. We have had some success 
with different levels of government employees and most of them 
are working somewhere else, if they are not working at their 
job that day.
    Ms. Lofgren. But that is an availability issue, not the 
same concern.
    Mr. Mauro. An availability issue. I would still like to see 
it get out in the business community and have the business 
community promote it, because a lot of businesses have voter 
awareness groups. I think if we could ever get there and get 
something really working there, I think it could be very 
successful, but I know some States have done it with success. 
We are still trying to put something like that in place.
    Ms. Lofgren. All right. Since have you been patient with 
us, I am hopeful that you can stay for one more round of 
questions from Mr. Ehlers and myself. I see some nodding heads, 
so I would recognize Mr. Ehlers for an additional 5 minutes of 
questions.
    Mr. Ehlers. Thank you, and I will try to be briefer than 
the first time. I appreciate your willingness to let me go 
longer the first time.
    First of all, we have a good deal of material that was 
submitted by Ms. Purcell to us. She was our witness, and I 
would just like to move that material she gave us be entered 
into the record.
    Ms. Lofgren. Without objection.
    Mr. Ehlers. Thank you. And then we will save a little time 
here.
    Ms. Purcell, you state that the Federal Government should 
not set mandates in how State and local jurisdictions run their 
pro-worker programs. Can you elaborate? What are your concerns 
here, and why should you do it, and not, why shouldn't the 
Federal Government be involved? Go ahead.
    Ms. Purcell. Thank you, Mr. Ehlers. If we are required to 
do certain things, it might limit our ability to get those poll 
coworkers who don't fit into that niche. As I said, if training 
is required, then we would have had over a thousand workers in 
the last election that we could not use, because we had to hire 
them the last weekend before the election, and obviously, there 
was no time to train them. Some of them had worked elections 
before so they had some training in a prior election. We try 
not to bring those in as any of our top workers at the polling 
places, but our clerks and that type of thing, but it just 
would not serve us well if we were mandated to have training 
for each and every poll worker.
    Mr. Ehlers. I see. And did your county use HAVA funds for 
poll worker training, or did you use your own funds?
    Ms. Purcell. Mr. Ehlers, we have used mostly our own funds, 
for the poll worker training. We do a little bit of outreach 
work with HAVA money, but most has been our own money.
    Mr. Ehlers. And Mr. Gough, you stated in your program where 
you hired tech savvy college students, which I think is a great 
idea. You just said the program cost $300 per student for 
training and service. Did you have sufficient money for that, 
or did you have to use HAVA funds for that?
    Mr. Gough. Yes, sir, this came out of city funds.
    Mr. Ehlers. City funds, good.
    Ms. Collins-Foley, you mentioned that, from your testimony, 
it is clear that retention is one of the biggest problems 
concerning poll workers. And certainly it was a problem in the 
last Presidential election. What do you recommend that States 
do to ameliorate this problem and try to improve retention?
    Ms. Collins-Foley. I think the first step is finding out 
who you want to bring back, because you don't want to bring 
back all of your poll workers. And I think that is a bigger 
challenge in some jurisdictions than others, some jurisdictions 
have set up terrific monitoring evaluation programs, so they 
know if the person went to training, if they opened the poll on 
time, if they had a bunch of voters that didn't sign their 
provisional ballots. They actually know who they hired, who 
they trained and who they want to bring back.
    And then in terms of retention, there's all sorts of, you 
know things that we don't know whether they work or not, you 
know, nice pens, nice certification, certificates of 
appreciation, that kind of thing. I think we need to bring back 
our good ones with newsletters and thank-you ceremonies and 
that kind of thing, but I think we also need to recognize it 
will be more and more difficult in the future to bring back a 
sufficient number of skilled poll workers, and that is why we 
need to get into some of these other creative Federal employee 
programs, corporate poll worker programs, county employee 
programs, high school student programs. I think we are going to 
continually be challenged to beef up our pool.
    Mr. Ehlers. In my experience at the polls, there is quite a 
variety of jobs and some are very mundane, just checking off 
lists and things like that; others are more demanding. It seems 
to me the key is to have a really good supervisor or 
supervisors who can keep everyone on the ball all the time.
    Part of the problem, too, I think, fatigue, particularly if 
you go to the polls at close to 8 o'clock and people have been 
there since 7 o'clock, no real breaks. They are pretty worn 
out, and I think fatigue affects their judgment and their 
performance as well.
    Ms. Collins-Foley. I think that is particularly true with--
some of the veteran poll workers are kind of used to that, but 
the students going to these polling places, and they are either 
bored out of their minds, or they find an opportunity to talk 
to some of the older poll workers and get something out of it.
    We find that the student poll workers say, I will never do 
that again. And you consider that to be a sad thing, but we 
find the hero of that program to be teachers, and if we can 
find a way to make a fuss over what fantastic teachers give us 
hundreds and thousands of students election after election, 
that will keep that youth in the polling place, people know 
that, particularly if a student goes off to college and may or 
may not serve again, they have had that great exposure. It is 
really the teachers that deserve the champion award for keeping 
the youth coming back every election and bringing that energy 
in.
    Mr. Ehlers. That is excellent. It might also help to have a 
separate room where they can go play video games for 15 minutes 
every once in a while.
    Ms. Lofgren. I was thinking the same thing.
    Mr. Ehlers. I yield back, thank you.
    Ms. Lofgren. Thank you. I am interested with the three 
election officials on translated ballots and other materials in 
qualified jurisdictions, Federal law requires that these 
materials be made available to citizens whose first language is 
a language other than English.
    What kind of training have you implemented to ensure that 
poll workers are actually providing these ballots? And then, 
every year we hear of problems where maybe the material isn't 
provided at the polling place. What kind of strategies have you 
engaged to make sure that that does not create a problem. And 
finally, in California, we found in our county it is so helpful 
if you are able to actually recruit some bilingual poll workers 
in areas where you know you are going to have a substantial 
number of people using a ballot in another language, and how 
have you approached that challenge?
    Ms. Purcell. Thank you. Madam Chairman, we do a constant 
recruiting of bilingual poll workers. It is required because we 
are one of the 13 States covered under the National Voting 
Rights Act, so we do that. But we constantly are going into the 
communities. We are looking at our voter registration rolls to 
make sure that we are servicing enough people.
    We do kind of a two-tiered thing of recruiting poll workers 
who say they are bilingual. We then have a test for them to 
take with one of our bilingual people in our office to make 
sure that they can in fact relate certain election issues and 
questions to the workers. And we also have the Native American 
languages, which of course are not written, and we have to 
provide those in oral form to all the chapter houses on our 
Indian reservations. So we have another thing that we have to 
do, and we try to constantly keep up with that.
    At our last election, our ballot was produced in both 
English and Spanish. We are hopeful we won't have do that 
again. We can have those ballots separate, because that made 
for a 4-page ballot and was confusing to everyone, even the 
Hispanic community complained about that.
    Ms. Lofgren. We have actually separated them. In Santa 
Clara County, like local option, we have gone on the expansive 
side. California, of course, has these initiatives, and some of 
them are very, very complicated. And even, you know, most 
voters speak English, but to be able to read something that 
complicated in your first language is a wonderful gift. And so 
we have got Korean, Chinese, Spanish, Vietnamese, on and on and 
on. Just the more you can help people understand it, the better 
off the society is. We just have separate ballots in hand, a 
different ballot to voters as they come in.
    Ms. Purcell. We were the only county in Arizona that was 
required by the Justice Department to produce a ballot that had 
both English and Spanish, and it was confusing to everyone.
    Ms. Lofgren. That is confusing.
    Ms. Purcell. We are trying to deal with it.
    Ms. Lofgren. Mr. Gough.
    Mr. Gough. Yes. We have to print in English, Spanish and in 
Chinese, and we recruit poll workers from their neighborhoods. 
If we have 1,200 precincts that are covered under section 203, 
which requires having Spanish-speaking poll workers in those 
precincts, we make sure that the people we recruit from those 
areas speak the language. Under section 203, we have about 68 
precincts for which we recruit people that speak Mandarin so 
that they can communicate with the voters. This has worked out 
very well. It is expensive, though.
    Ms. Lofgren. Mr. Mauro.
    Mr. Mauro. In Iowa, it is not an issue at the present time. 
We only print in English. The next census comes around that 
possibly could change, but right now, we're only printing one 
language.
    Ms. Lofgren. Okay. I was thinking--and this is really the 
final question I have--getting back to the recruitment of young 
people, I know when my kids were going to San Jose High in 
downtown San Jose, every kid was required to have a certain 
number of hours of community service. And I will confess that 
my kids, like the rest of the kids, would wait until the end, 
and they would go, oh, my goodness, I have to have so many 
hours to graduate. But I don't recall if we ever did anything 
to say this could get a young person qualified to do that, and 
if that is a thought, if it isn't qualified under community 
service, that maybe we ought to do some outreach to schools to 
be sure that it would qualify. And that it is a great 
opportunity, because it is organized, and you don't have to 
scramble to figure out what else to do.
    And then just another reminder. When I was an 
undergraduate, Stanford had a campus in England, and my 
favorite political science professor, Ray Wolfinger, decided 
that we would do polling in the Midlands, and no matter how 
good you were at political science, you would not get the units 
for his courses unless you actually went and did 100 interviews 
for polls. And so for government classes, maybe we could 
incentivize these kids also, because it is a great opportunity 
and experience to see the wonderful American, electoral system 
in action. So between community service and our government 
teachers--that was my favorite class in high school--we might 
be able to put some further incentives into place for young 
people because they clearly will be part of the answer, not all 
of the answer.
    With that, we would note that we have 5 legislative days to 
submit additional questions, and if you do we ask that you 
respond to them as promptly as possible. And once again, we do 
thank you very, very much for your willingness to be here.
    Mr. Ehlers.
    Mr. Ehlers. First of all, I notice your microphone is 
cutting in and out. We better get that repaired.
    Ms. Lofgren. Does anyone know someone on the House 
Administration Committee?
    Mr. Ehlers. Yeah, why don't we find Mr. Brady? I used to do 
that myself.
    I just want to thank you for this hearing. The last thing I 
needed today was another hearing or meeting, but I thoroughly 
enjoyed it, and I learned a lot, and I really appreciate you 
doing this.
    Also I can't resist making a comment, since I used to live 
in California, and I know what you mean about the ballot 
proposals. Unfortunately, California started the proposition 
industry, and it has now moved to most States. I really wish we 
could control it, because I totally agree with you, even if you 
read perfect English, it is very hard to make sense of all the 
nuances of the proposal.
    Ms. Lofgren. Yes.
    Mr. Ehlers. I wish we could control it in some way, because 
I think we get some very bad laws.
    Ms. Lofgren. Oftentimes, and California is the poster 
child, I am afraid, for some of that, but----
    Mr. Ehlers. Yeah.
    Ms. Lofgren. With that, I would like to again thank the 
witness. A lot of people don't realize that the witnesses come 
as volunteers to the country, and it is a tremendous gift you 
have given us today with your expertise. We do appreciate it 
and will call this hearing to a close. Thank you.
    [Whereupon, at 3:49 p.m., the subcommittee was adjourned.]
    [Information follows:]
    [GRAPHIC] [TIFF OMITTED] 40365A.533
    
    [GRAPHIC] [TIFF OMITTED] 40365A.534
    
    [GRAPHIC] [TIFF OMITTED] 40365A.535
    
    [GRAPHIC] [TIFF OMITTED] 40365A.536
    
    [GRAPHIC] [TIFF OMITTED] 40365A.537
    
    [GRAPHIC] [TIFF OMITTED] 40365A.538
    
    [GRAPHIC] [TIFF OMITTED] 40365A.539
    
    [GRAPHIC] [TIFF OMITTED] 40365A.540
    
    [GRAPHIC] [TIFF OMITTED] 40365A.541
    
    [GRAPHIC] [TIFF OMITTED] 40365A.542
    
    [GRAPHIC] [TIFF OMITTED] 40365A.543
    
    [GRAPHIC] [TIFF OMITTED] 40365A.544
    
    [GRAPHIC] [TIFF OMITTED] 40365A.545
    
    [GRAPHIC] [TIFF OMITTED] 40365A.546
    
    [GRAPHIC] [TIFF OMITTED] 40365A.547
    
    [GRAPHIC] [TIFF OMITTED] 40365A.548
    
    [GRAPHIC] [TIFF OMITTED] 40365A.549
    
    [GRAPHIC] [TIFF OMITTED] 40365A.550
    
    [GRAPHIC] [TIFF OMITTED] 40365A.551
    
    [GRAPHIC] [TIFF OMITTED] 40365A.552
    
    [GRAPHIC] [TIFF OMITTED] 40365A.553
    
    [GRAPHIC] [TIFF OMITTED] 40365A.554
    
    [GRAPHIC] [TIFF OMITTED] 40365A.555
    
    [GRAPHIC] [TIFF OMITTED] 40365A.556
    
    [GRAPHIC] [TIFF OMITTED] 40365A.557
    
    [GRAPHIC] [TIFF OMITTED] 40365A.558
    
    [GRAPHIC] [TIFF OMITTED] 40365A.559
    
    [GRAPHIC] [TIFF OMITTED] 40365A.560
    
    [GRAPHIC] [TIFF OMITTED] 40365A.561
    
    [GRAPHIC] [TIFF OMITTED] 40365A.562
    
    [GRAPHIC] [TIFF OMITTED] 40365A.563
    
    [GRAPHIC] [TIFF OMITTED] 40365A.564
    
    [GRAPHIC] [TIFF OMITTED] 40365A.565
    
    [GRAPHIC] [TIFF OMITTED] 40365A.566
    
    [GRAPHIC] [TIFF OMITTED] 40365A.567
    
    [GRAPHIC] [TIFF OMITTED] 40365A.568
    
    [GRAPHIC] [TIFF OMITTED] 40365A.569
    
    [GRAPHIC] [TIFF OMITTED] 40365A.570
    
    [GRAPHIC] [TIFF OMITTED] 40365A.571
    
    [GRAPHIC] [TIFF OMITTED] 40365A.572
    
    [GRAPHIC] [TIFF OMITTED] 40365A.573
    
    [GRAPHIC] [TIFF OMITTED] 40365A.574
    
    [GRAPHIC] [TIFF OMITTED] 40365A.575
    
    [GRAPHIC] [TIFF OMITTED] 40365A.576
    
    [GRAPHIC] [TIFF OMITTED] 40365A.577
    
    [GRAPHIC] [TIFF OMITTED] 40365A.578
    
    [GRAPHIC] [TIFF OMITTED] 40365A.579
    
    [GRAPHIC] [TIFF OMITTED] 40365A.580
    
    [GRAPHIC] [TIFF OMITTED] 40365A.581
    
    [GRAPHIC] [TIFF OMITTED] 40365A.582
    
    [GRAPHIC] [TIFF OMITTED] 40365A.583
    
    [GRAPHIC] [TIFF OMITTED] 40365A.584
    
    [GRAPHIC] [TIFF OMITTED] 40365A.585
    
    [GRAPHIC] [TIFF OMITTED] 40365A.586
    
    [GRAPHIC] [TIFF OMITTED] 40365A.587
    
    [GRAPHIC] [TIFF OMITTED] 40365A.588
    
    [GRAPHIC] [TIFF OMITTED] 40365A.589
    
    [GRAPHIC] [TIFF OMITTED] 40365A.590
    
    [GRAPHIC] [TIFF OMITTED] 40365A.591
    
    [GRAPHIC] [TIFF OMITTED] 40365A.592
    
    [GRAPHIC] [TIFF OMITTED] 40365A.593
    
    [GRAPHIC] [TIFF OMITTED] 40365A.594
    
    [GRAPHIC] [TIFF OMITTED] 40365A.595
    
    [GRAPHIC] [TIFF OMITTED] 40365A.596
    
    [GRAPHIC] [TIFF OMITTED] 40365A.597
    
    [GRAPHIC] [TIFF OMITTED] 40365A.598
    
    [GRAPHIC] [TIFF OMITTED] 40365A.599
    
    [GRAPHIC] [TIFF OMITTED] 40365A.600
    
    [GRAPHIC] [TIFF OMITTED] 40365A.601
    
    [GRAPHIC] [TIFF OMITTED] 40365A.602
    
    [GRAPHIC] [TIFF OMITTED] 40365A.603
    
    [GRAPHIC] [TIFF OMITTED] 40365A.604
    
    [GRAPHIC] [TIFF OMITTED] 40365A.605
    
    [GRAPHIC] [TIFF OMITTED] 40365A.606
    
    [GRAPHIC] [TIFF OMITTED] 40365A.607
    
    [GRAPHIC] [TIFF OMITTED] 40365A.608
    
    [GRAPHIC] [TIFF OMITTED] 40365A.609
    
    [GRAPHIC] [TIFF OMITTED] 40365A.610
    
    [GRAPHIC] [TIFF OMITTED] 40365A.611
    
    [GRAPHIC] [TIFF OMITTED] 40365A.612
    
    [GRAPHIC] [TIFF OMITTED] 40365A.613
    
    [GRAPHIC] [TIFF OMITTED] 40365A.614
    
    [GRAPHIC] [TIFF OMITTED] 40365A.615
    
    [GRAPHIC] [TIFF OMITTED] 40365A.616
    
    [GRAPHIC] [TIFF OMITTED] 40365A.617
    
    [GRAPHIC] [TIFF OMITTED] 40365A.618
    
    [GRAPHIC] [TIFF OMITTED] 40365A.619
    
    [GRAPHIC] [TIFF OMITTED] 40365A.620
    
    [GRAPHIC] [TIFF OMITTED] 40365A.621
    
    [GRAPHIC] [TIFF OMITTED] 40365A.622
    
    [GRAPHIC] [TIFF OMITTED] 40365A.623
    
    [GRAPHIC] [TIFF OMITTED] 40365A.624
    
    [GRAPHIC] [TIFF OMITTED] 40365A.625
    
    [GRAPHIC] [TIFF OMITTED] 40365A.626
    
    [GRAPHIC] [TIFF OMITTED] 40365A.627
    
    [GRAPHIC] [TIFF OMITTED] 40365A.628
    
    [GRAPHIC] [TIFF OMITTED] 40365A.629
    
    [GRAPHIC] [TIFF OMITTED] 40365A.630
    
    [GRAPHIC] [TIFF OMITTED] 40365A.631
    
    [GRAPHIC] [TIFF OMITTED] 40365A.632
    
    [GRAPHIC] [TIFF OMITTED] 40365A.633
    
    [GRAPHIC] [TIFF OMITTED] 40365A.634
    
    [GRAPHIC] [TIFF OMITTED] 40365A.635
    
    [GRAPHIC] [TIFF OMITTED] 40365A.636
    
    [GRAPHIC] [TIFF OMITTED] 40365A.637
    
    [GRAPHIC] [TIFF OMITTED] 40365A.638
    
    [GRAPHIC] [TIFF OMITTED] 40365A.639
    
    [GRAPHIC] [TIFF OMITTED] 40365A.640
    
    [GRAPHIC] [TIFF OMITTED] 40365A.641
    
    [GRAPHIC] [TIFF OMITTED] 40365A.642
    
    [GRAPHIC] [TIFF OMITTED] 40365A.643
    
    [GRAPHIC] [TIFF OMITTED] 40365A.644
    
    [GRAPHIC] [TIFF OMITTED] 40365A.645
    
    [GRAPHIC] [TIFF OMITTED] 40365A.646
    
    [GRAPHIC] [TIFF OMITTED] 40365A.647
    
    [GRAPHIC] [TIFF OMITTED] 40365A.648
    
    [GRAPHIC] [TIFF OMITTED] 40365A.649
    
    [GRAPHIC] [TIFF OMITTED] 40365A.650
    
    [GRAPHIC] [TIFF OMITTED] 40365A.651
    
    [GRAPHIC] [TIFF OMITTED] 40365A.652
    
    [GRAPHIC] [TIFF OMITTED] 40365A.653
    
    [GRAPHIC] [TIFF OMITTED] 40365A.654
    
    [GRAPHIC] [TIFF OMITTED] 40365A.655
    
    [GRAPHIC] [TIFF OMITTED] 40365A.656
    
    [GRAPHIC] [TIFF OMITTED] 40365A.657
    
    [GRAPHIC] [TIFF OMITTED] 40365A.658
    
    [GRAPHIC] [TIFF OMITTED] 40365A.659
    
    [GRAPHIC] [TIFF OMITTED] 40365A.660
    
    [GRAPHIC] [TIFF OMITTED] 40365A.661
    
    [GRAPHIC] [TIFF OMITTED] 40365A.662
    
    [GRAPHIC] [TIFF OMITTED] 40365A.663
    
    [GRAPHIC] [TIFF OMITTED] 40365A.664
    
    [GRAPHIC] [TIFF OMITTED] 40365A.665
    
    [GRAPHIC] [TIFF OMITTED] 40365A.666
    
    [GRAPHIC] [TIFF OMITTED] 40365A.667
    
    [GRAPHIC] [TIFF OMITTED] 40365A.668
    
    [GRAPHIC] [TIFF OMITTED] 40365A.669
    
    [GRAPHIC] [TIFF OMITTED] 40365A.670
    
    [GRAPHIC] [TIFF OMITTED] 40365A.671
    
    [GRAPHIC] [TIFF OMITTED] 40365A.672
    
    [GRAPHIC] [TIFF OMITTED] 40365A.673
    
    [GRAPHIC] [TIFF OMITTED] 40365A.674
    
    [GRAPHIC] [TIFF OMITTED] 40365A.675
    
    [GRAPHIC] [TIFF OMITTED] 40365A.676
    
    [GRAPHIC] [TIFF OMITTED] 40365A.677
    
    [GRAPHIC] [TIFF OMITTED] 40365A.678
    
    [GRAPHIC] [TIFF OMITTED] 40365A.679
    
    [GRAPHIC] [TIFF OMITTED] 40365A.680
    
    [GRAPHIC] [TIFF OMITTED] 40365A.681
    
    [GRAPHIC] [TIFF OMITTED] 40365A.682
    
    [GRAPHIC] [TIFF OMITTED] 40365A.683
    
    [GRAPHIC] [TIFF OMITTED] 40365A.684
    
    [GRAPHIC] [TIFF OMITTED] 40365A.685
    
    [GRAPHIC] [TIFF OMITTED] 40365A.686
    
    [GRAPHIC] [TIFF OMITTED] 40365A.687
    
    [GRAPHIC] [TIFF OMITTED] 40365A.688
    
    [GRAPHIC] [TIFF OMITTED] 40365A.689
    
    [GRAPHIC] [TIFF OMITTED] 40365A.690
    
    [GRAPHIC] [TIFF OMITTED] 40365A.691
    
    [GRAPHIC] [TIFF OMITTED] 40365A.692
    
    [GRAPHIC] [TIFF OMITTED] 40365A.693
    
    [GRAPHIC] [TIFF OMITTED] 40365A.694
    
    [GRAPHIC] [TIFF OMITTED] 40365A.695
    
    [GRAPHIC] [TIFF OMITTED] 40365A.696
    
    [GRAPHIC] [TIFF OMITTED] 40365A.697
    
    [GRAPHIC] [TIFF OMITTED] 40365A.698
    
    [GRAPHIC] [TIFF OMITTED] 40365A.699
    
    [GRAPHIC] [TIFF OMITTED] 40365A.700
    
    [GRAPHIC] [TIFF OMITTED] 40365A.701
    
    [GRAPHIC] [TIFF OMITTED] 40365A.702
    
    [GRAPHIC] [TIFF OMITTED] 40365A.703
    
    [GRAPHIC] [TIFF OMITTED] 40365A.704
    
    [GRAPHIC] [TIFF OMITTED] 40365A.705
    
    [GRAPHIC] [TIFF OMITTED] 40365A.706
    
    [GRAPHIC] [TIFF OMITTED] 40365A.707
    
    [GRAPHIC] [TIFF OMITTED] 40365A.708
    
    [GRAPHIC] [TIFF OMITTED] 40365A.709
    
    [GRAPHIC] [TIFF OMITTED] 40365A.710
    
    [GRAPHIC] [TIFF OMITTED] 40365A.711
    
    [GRAPHIC] [TIFF OMITTED] 40365A.712
    
    [GRAPHIC] [TIFF OMITTED] 40365A.713
    
    [GRAPHIC] [TIFF OMITTED] 40365A.714
    
    [GRAPHIC] [TIFF OMITTED] 40365A.715
    
    [GRAPHIC] [TIFF OMITTED] 40365A.716
    
    [GRAPHIC] [TIFF OMITTED] 40365A.717
    
    [GRAPHIC] [TIFF OMITTED] 40365A.718
    
    [GRAPHIC] [TIFF OMITTED] 40365A.719
    
    [GRAPHIC] [TIFF OMITTED] 40365A.720
    
    [GRAPHIC] [TIFF OMITTED] 40365A.721
    
    [GRAPHIC] [TIFF OMITTED] 40365A.722
    
    [GRAPHIC] [TIFF OMITTED] 40365A.723
    
    [GRAPHIC] [TIFF OMITTED] 40365A.724
    
    [GRAPHIC] [TIFF OMITTED] 40365A.725
    
    [GRAPHIC] [TIFF OMITTED] 40365A.726
    
    [GRAPHIC] [TIFF OMITTED] 40365A.727
    
    [GRAPHIC] [TIFF OMITTED] 40365A.728
    
    [GRAPHIC] [TIFF OMITTED] 40365A.729
    
    [GRAPHIC] [TIFF OMITTED] 40365A.730
    
    [GRAPHIC] [TIFF OMITTED] 40365A.731
    
    [GRAPHIC] [TIFF OMITTED] 40365A.732
    
    [GRAPHIC] [TIFF OMITTED] 40365A.733
    
    [GRAPHIC] [TIFF OMITTED] 40365A.734
    
    [GRAPHIC] [TIFF OMITTED] 40365A.735
    
    [GRAPHIC] [TIFF OMITTED] 40365A.736
    
    [GRAPHIC] [TIFF OMITTED] 40365A.737
    
    [GRAPHIC] [TIFF OMITTED] 40365A.738
    
    [GRAPHIC] [TIFF OMITTED] 40365A.739
    
    [GRAPHIC] [TIFF OMITTED] 40365A.740
    
    [GRAPHIC] [TIFF OMITTED] 40365A.741
    
    [GRAPHIC] [TIFF OMITTED] 40365A.742
    
    [GRAPHIC] [TIFF OMITTED] 40365A.743
    
    [GRAPHIC] [TIFF OMITTED] 40365A.744
    
    [GRAPHIC] [TIFF OMITTED] 40365A.745
    
    [GRAPHIC] [TIFF OMITTED] 40365A.746
    
    [GRAPHIC] [TIFF OMITTED] 40365A.747
    
    [GRAPHIC] [TIFF OMITTED] 40365A.748
    
    [GRAPHIC] [TIFF OMITTED] 40365A.749
    
    [GRAPHIC] [TIFF OMITTED] 40365A.750
    
    [GRAPHIC] [TIFF OMITTED] 40365A.751
    
    [GRAPHIC] [TIFF OMITTED] 40365A.752
    
    [GRAPHIC] [TIFF OMITTED] 40365A.753
    
    [GRAPHIC] [TIFF OMITTED] 40365A.754
    
    [GRAPHIC] [TIFF OMITTED] 40365A.755
    
    [GRAPHIC] [TIFF OMITTED] 40365A.756
    
    [GRAPHIC] [TIFF OMITTED] 40365A.757
    
    [GRAPHIC] [TIFF OMITTED] 40365A.758
    
    [GRAPHIC] [TIFF OMITTED] 40365A.759
    
    [GRAPHIC] [TIFF OMITTED] 40365A.760
    
    [GRAPHIC] [TIFF OMITTED] 40365A.761
    
    [GRAPHIC] [TIFF OMITTED] 40365A.762
    
    [GRAPHIC] [TIFF OMITTED] 40365A.763
    
    [GRAPHIC] [TIFF OMITTED] 40365A.764
    
    [GRAPHIC] [TIFF OMITTED] 40365A.765
    
    [GRAPHIC] [TIFF OMITTED] 40365A.766
    
    [GRAPHIC] [TIFF OMITTED] 40365A.767
    
    [GRAPHIC] [TIFF OMITTED] 40365A.768
    
    [GRAPHIC] [TIFF OMITTED] 40365A.769
    
    [GRAPHIC] [TIFF OMITTED] 40365A.770
    
    [GRAPHIC] [TIFF OMITTED] 40365A.771
    
    [GRAPHIC] [TIFF OMITTED] 40365A.772
    
    [GRAPHIC] [TIFF OMITTED] 40365A.773
    
    [GRAPHIC] [TIFF OMITTED] 40365A.774
    
    [GRAPHIC] [TIFF OMITTED] 40365A.775
    
    [GRAPHIC] [TIFF OMITTED] 40365A.776
    
    [GRAPHIC] [TIFF OMITTED] 40365A.777
    
    [GRAPHIC] [TIFF OMITTED] 40365A.778
    
    [GRAPHIC] [TIFF OMITTED] 40365A.779
    
    [GRAPHIC] [TIFF OMITTED] 40365A.780
    
    [GRAPHIC] [TIFF OMITTED] 40365A.781
    
    [GRAPHIC] [TIFF OMITTED] 40365A.782
    
    [GRAPHIC] [TIFF OMITTED] 40365A.783
    
    [GRAPHIC] [TIFF OMITTED] 40365A.784
    
    [GRAPHIC] [TIFF OMITTED] 40365A.785
    
    [GRAPHIC] [TIFF OMITTED] 40365A.786
    
    [GRAPHIC] [TIFF OMITTED] 40365A.787
    
    [GRAPHIC] [TIFF OMITTED] 40365A.788
    
    [GRAPHIC] [TIFF OMITTED] 40365A.789
    
    [GRAPHIC] [TIFF OMITTED] 40365A.790
    
    [GRAPHIC] [TIFF OMITTED] 40365A.791
    
    [GRAPHIC] [TIFF OMITTED] 40365A.792
    
    [GRAPHIC] [TIFF OMITTED] 40365A.793
    
    [GRAPHIC] [TIFF OMITTED] 40365A.794
    
    [GRAPHIC] [TIFF OMITTED] 40365A.795
    
    [GRAPHIC] [TIFF OMITTED] 40365A.796
    
    [GRAPHIC] [TIFF OMITTED] 40365A.797
    
    [GRAPHIC] [TIFF OMITTED] 40365A.798
    
    [GRAPHIC] [TIFF OMITTED] 40365A.799
    
    [GRAPHIC] [TIFF OMITTED] 40365A.800
    
    [GRAPHIC] [TIFF OMITTED] 40365A.801
    
    [GRAPHIC] [TIFF OMITTED] 40365A.802
    
    [GRAPHIC] [TIFF OMITTED] 40365A.803
    
    [GRAPHIC] [TIFF OMITTED] 40365A.804
    
    [GRAPHIC] [TIFF OMITTED] 40365A.805
    
    [GRAPHIC] [TIFF OMITTED] 40365A.806
    
    [GRAPHIC] [TIFF OMITTED] 40365A.807
    
    [GRAPHIC] [TIFF OMITTED] 40365A.808
    
    [GRAPHIC] [TIFF OMITTED] 40365A.809
    
    [GRAPHIC] [TIFF OMITTED] 40365A.810
    
    [GRAPHIC] [TIFF OMITTED] 40365A.811
    
    [GRAPHIC] [TIFF OMITTED] 40365A.812
    
    [GRAPHIC] [TIFF OMITTED] 40365A.813
    
    [GRAPHIC] [TIFF OMITTED] 40365A.814
    
    [GRAPHIC] [TIFF OMITTED] 40365A.815
    
    [GRAPHIC] [TIFF OMITTED] 40365A.816
    
    [GRAPHIC] [TIFF OMITTED] 40365A.817
    
    [GRAPHIC] [TIFF OMITTED] 40365A.818
    
    [GRAPHIC] [TIFF OMITTED] 40365A.819
    
    [GRAPHIC] [TIFF OMITTED] 40365A.820
    
    [GRAPHIC] [TIFF OMITTED] 40365A.821
    
    [GRAPHIC] [TIFF OMITTED] 40365A.822
    
    [GRAPHIC] [TIFF OMITTED] 40365A.823
    
    [GRAPHIC] [TIFF OMITTED] 40365A.824
    
    [GRAPHIC] [TIFF OMITTED] 40365A.825
    
    [GRAPHIC] [TIFF OMITTED] 40365A.826
    
    [GRAPHIC] [TIFF OMITTED] 40365A.827
    
    [GRAPHIC] [TIFF OMITTED] 40365A.828
    
    [GRAPHIC] [TIFF OMITTED] 40365A.829
    
    [GRAPHIC] [TIFF OMITTED] 40365A.830
    
    [GRAPHIC] [TIFF OMITTED] 40365A.831
    
    [GRAPHIC] [TIFF OMITTED] 40365A.832
    
    [GRAPHIC] [TIFF OMITTED] 40365A.833
    
    [GRAPHIC] [TIFF OMITTED] 40365A.834
    
    [GRAPHIC] [TIFF OMITTED] 40365A.835
    
    [GRAPHIC] [TIFF OMITTED] 40365A.836
    
    [GRAPHIC] [TIFF OMITTED] 40365A.837
    
    [GRAPHIC] [TIFF OMITTED] 40365A.838
    
    [GRAPHIC] [TIFF OMITTED] 40365A.839
    
    [GRAPHIC] [TIFF OMITTED] 40365A.840
    
    [GRAPHIC] [TIFF OMITTED] 40365A.841
    
    [GRAPHIC] [TIFF OMITTED] 40365A.842
    
    [GRAPHIC] [TIFF OMITTED] 40365A.843
    
    [GRAPHIC] [TIFF OMITTED] 40365A.844
    
    [GRAPHIC] [TIFF OMITTED] 40365A.845
    
    [GRAPHIC] [TIFF OMITTED] 40365A.846
    
    [GRAPHIC] [TIFF OMITTED] 40365A.847
    
    [GRAPHIC] [TIFF OMITTED] 40365A.848
    
    [GRAPHIC] [TIFF OMITTED] 40365A.849
    
    [GRAPHIC] [TIFF OMITTED] 40365A.850
    
    [GRAPHIC] [TIFF OMITTED] 40365A.851
    
    [GRAPHIC] [TIFF OMITTED] 40365A.852
    
    [GRAPHIC] [TIFF OMITTED] 40365A.853
    
    [GRAPHIC] [TIFF OMITTED] 40365A.854
    
    [GRAPHIC] [TIFF OMITTED] 40365A.855
    
    [GRAPHIC] [TIFF OMITTED] 40365A.856
    
    [GRAPHIC] [TIFF OMITTED] 40365A.857
    
    [GRAPHIC] [TIFF OMITTED] 40365A.858
    
    [GRAPHIC] [TIFF OMITTED] 40365A.859
    
    [GRAPHIC] [TIFF OMITTED] 40365A.860
    
    [GRAPHIC] [TIFF OMITTED] 40365A.861
    
    [GRAPHIC] [TIFF OMITTED] 40365A.862
    
    [GRAPHIC] [TIFF OMITTED] 40365A.863
    
    [GRAPHIC] [TIFF OMITTED] 40365A.864
    
    [GRAPHIC] [TIFF OMITTED] 40365A.865
    
    [GRAPHIC] [TIFF OMITTED] 40365A.866
    
    [GRAPHIC] [TIFF OMITTED] 40365A.867
    
    [GRAPHIC] [TIFF OMITTED] 40365A.868
    
    [GRAPHIC] [TIFF OMITTED] 40365A.869
    
    [GRAPHIC] [TIFF OMITTED] 40365A.870
    
    [GRAPHIC] [TIFF OMITTED] 40365A.871
    
    [GRAPHIC] [TIFF OMITTED] 40365A.872
    
    [GRAPHIC] [TIFF OMITTED] 40365A.873
    
    [GRAPHIC] [TIFF OMITTED] 40365A.874
    
    [GRAPHIC] [TIFF OMITTED] 40365A.875
    
    [GRAPHIC] [TIFF OMITTED] 40365A.876
    
    [GRAPHIC] [TIFF OMITTED] 40365A.877
    
    [GRAPHIC] [TIFF OMITTED] 40365A.878
    
    [GRAPHIC] [TIFF OMITTED] 40365A.879
    
    [GRAPHIC] [TIFF OMITTED] 40365A.880
    
    [GRAPHIC] [TIFF OMITTED] 40365A.881
    
    [GRAPHIC] [TIFF OMITTED] 40365A.882
    
    [GRAPHIC] [TIFF OMITTED] 40365A.883
    
    [GRAPHIC] [TIFF OMITTED] 40365A.884
    
    [GRAPHIC] [TIFF OMITTED] 40365A.885
    
    [GRAPHIC] [TIFF OMITTED] 40365A.886
    
    [GRAPHIC] [TIFF OMITTED] 40365A.887
    
    [GRAPHIC] [TIFF OMITTED] 40365A.888
    
    [GRAPHIC] [TIFF OMITTED] 40365A.889
    
    [GRAPHIC] [TIFF OMITTED] 40365A.890
    
    [GRAPHIC] [TIFF OMITTED] 40365A.891
    
    [GRAPHIC] [TIFF OMITTED] 40365A.892
    
    [GRAPHIC] [TIFF OMITTED] 40365A.893
    
    [GRAPHIC] [TIFF OMITTED] 40365A.894
    
    [GRAPHIC] [TIFF OMITTED] 40365A.895
    
    [GRAPHIC] [TIFF OMITTED] 40365A.896
    
    [GRAPHIC] [TIFF OMITTED] 40365A.897
    
    [GRAPHIC] [TIFF OMITTED] 40365A.898
    
    [GRAPHIC] [TIFF OMITTED] 40365A.899
    
    [GRAPHIC] [TIFF OMITTED] 40365A.900
    
    [GRAPHIC] [TIFF OMITTED] 40365A.901
    
    [GRAPHIC] [TIFF OMITTED] 40365A.902
    
    [GRAPHIC] [TIFF OMITTED] 40365A.903
    
    [GRAPHIC] [TIFF OMITTED] 40365A.904
    
    [GRAPHIC] [TIFF OMITTED] 40365A.905
    
    [GRAPHIC] [TIFF OMITTED] 40365A.906
    
    [GRAPHIC] [TIFF OMITTED] 40365A.907
    
    [GRAPHIC] [TIFF OMITTED] 40365A.908
    
    [GRAPHIC] [TIFF OMITTED] 40365A.909
    
    [GRAPHIC] [TIFF OMITTED] 40365A.910
    
    [GRAPHIC] [TIFF OMITTED] 40365A.911
    
    [GRAPHIC] [TIFF OMITTED] 40365A.912
    
    [GRAPHIC] [TIFF OMITTED] 40365A.913
    
    [GRAPHIC] [TIFF OMITTED] 40365A.914
    
    [GRAPHIC] [TIFF OMITTED] 40365A.915
    
    [GRAPHIC] [TIFF OMITTED] 40365A.916
    
    [GRAPHIC] [TIFF OMITTED] 40365A.917
    
    [GRAPHIC] [TIFF OMITTED] 40365A.918
    
    [GRAPHIC] [TIFF OMITTED] 40365A.919
    
    [GRAPHIC] [TIFF OMITTED] 40365A.920
    
    [GRAPHIC] [TIFF OMITTED] 40365A.921
    
    [GRAPHIC] [TIFF OMITTED] 40365A.922
    
    [GRAPHIC] [TIFF OMITTED] 40365A.923
    
    [GRAPHIC] [TIFF OMITTED] 40365A.924
    
    [GRAPHIC] [TIFF OMITTED] 40365A.925
    
    [GRAPHIC] [TIFF OMITTED] 40365A.926
    
    [GRAPHIC] [TIFF OMITTED] 40365A.927
    
    [GRAPHIC] [TIFF OMITTED] 40365A.928
    
    [GRAPHIC] [TIFF OMITTED] 40365A.929
    
    [GRAPHIC] [TIFF OMITTED] 40365A.930
    
    [GRAPHIC] [TIFF OMITTED] 40365A.931
    
    [GRAPHIC] [TIFF OMITTED] 40365A.932
    
    [GRAPHIC] [TIFF OMITTED] 40365A.933
    
    [GRAPHIC] [TIFF OMITTED] 40365A.934
    
    [GRAPHIC] [TIFF OMITTED] 40365A.935
    
    [GRAPHIC] [TIFF OMITTED] 40365A.936
    
    [GRAPHIC] [TIFF OMITTED] 40365A.937
    
    [GRAPHIC] [TIFF OMITTED] 40365A.938
    
    [GRAPHIC] [TIFF OMITTED] 40365A.939
    
    [GRAPHIC] [TIFF OMITTED] 40365A.940
    
    [GRAPHIC] [TIFF OMITTED] 40365A.941
    
    [GRAPHIC] [TIFF OMITTED] 40365A.942
    
    [GRAPHIC] [TIFF OMITTED] 40365A.943
    
    [GRAPHIC] [TIFF OMITTED] 40365A.944
    
    [GRAPHIC] [TIFF OMITTED] 40365A.945
    
    [GRAPHIC] [TIFF OMITTED] 40365A.946
    
    [GRAPHIC] [TIFF OMITTED] 40365A.947
    
    [GRAPHIC] [TIFF OMITTED] 40365A.948
    
    [GRAPHIC] [TIFF OMITTED] 40365A.949
    
    [GRAPHIC] [TIFF OMITTED] 40365A.950
    
    [GRAPHIC] [TIFF OMITTED] 40365A.951
    
    [GRAPHIC] [TIFF OMITTED] 40365A.952
    
    [GRAPHIC] [TIFF OMITTED] 40365A.953
    
    [GRAPHIC] [TIFF OMITTED] 40365A.954
    
    [GRAPHIC] [TIFF OMITTED] 40365A.955
    
    [GRAPHIC] [TIFF OMITTED] 40365A.956
    
    [GRAPHIC] [TIFF OMITTED] 40365A.957
    
    [GRAPHIC] [TIFF OMITTED] 40365A.958
    
    [GRAPHIC] [TIFF OMITTED] 40365A.959
    
    [GRAPHIC] [TIFF OMITTED] 40365A.960
    
    [GRAPHIC] [TIFF OMITTED] 40365A.961
    
    [GRAPHIC] [TIFF OMITTED] 40365A.962
    
    [GRAPHIC] [TIFF OMITTED] 40365A.963
    
    [GRAPHIC] [TIFF OMITTED] 40365A.964
    
    [GRAPHIC] [TIFF OMITTED] 40365A.965
    
    [GRAPHIC] [TIFF OMITTED] 40365A.966
    
    [GRAPHIC] [TIFF OMITTED] 40365A.967
    
    [GRAPHIC] [TIFF OMITTED] 40365A.968
    
    [GRAPHIC] [TIFF OMITTED] 40365A.969
    
    [GRAPHIC] [TIFF OMITTED] 40365A.970
    
    [GRAPHIC] [TIFF OMITTED] 40365A.971
    
    [GRAPHIC] [TIFF OMITTED] 40365A.972
    
    [GRAPHIC] [TIFF OMITTED] 40365A.973
    
    [GRAPHIC] [TIFF OMITTED] 40365A.974
    
    [GRAPHIC] [TIFF OMITTED] 40365A.975
    
    [GRAPHIC] [TIFF OMITTED] 40365A.976
    
    [GRAPHIC] [TIFF OMITTED] 40365A.977
    
    [GRAPHIC] [TIFF OMITTED] 40365A.978
    
    [GRAPHIC] [TIFF OMITTED] 40365A.979
    
    [GRAPHIC] [TIFF OMITTED] 40365A.980
    
    [GRAPHIC] [TIFF OMITTED] 40365A.981
    
    [GRAPHIC] [TIFF OMITTED] 40365A.982
    
    [GRAPHIC] [TIFF OMITTED] 40365A.983
    
    [GRAPHIC] [TIFF OMITTED] 40365A.984
    
    [GRAPHIC] [TIFF OMITTED] 40365A.985
    
    [GRAPHIC] [TIFF OMITTED] 40365A.986
    
    [GRAPHIC] [TIFF OMITTED] 40365A.987
    
    [GRAPHIC] [TIFF OMITTED] 40365A.988
    
    [GRAPHIC] [TIFF OMITTED] 40365A.989
    
    [GRAPHIC] [TIFF OMITTED] 40365A.990
    
    [GRAPHIC] [TIFF OMITTED] 40365A.991
    
    [GRAPHIC] [TIFF OMITTED] 40365A.992
    
    [GRAPHIC] [TIFF OMITTED] 40365A.993
    
    [GRAPHIC] [TIFF OMITTED] 40365A.994
    
    [GRAPHIC] [TIFF OMITTED] 40365A.995
    
    [GRAPHIC] [TIFF OMITTED] 40365A.996
    
    [GRAPHIC] [TIFF OMITTED] 40365A.997
    
    [GRAPHIC] [TIFF OMITTED] 40365A.998
    
    [GRAPHIC] [TIFF OMITTED] 40365A.999
    
    [GRAPHIC] [TIFF OMITTED] 40365A1.000
    
    [GRAPHIC] [TIFF OMITTED] 40365A1.001
    
    [GRAPHIC] [TIFF OMITTED] 40365A1.002
    
    [GRAPHIC] [TIFF OMITTED] 40365A1.003
    
    [GRAPHIC] [TIFF OMITTED] 40365A1.004
    
    [GRAPHIC] [TIFF OMITTED] 40365A1.005
    
    [GRAPHIC] [TIFF OMITTED] 40365A1.006
    
    [GRAPHIC] [TIFF OMITTED] 40365A1.007
    
    [GRAPHIC] [TIFF OMITTED] 40365A1.008
    
    [GRAPHIC] [TIFF OMITTED] 40365A1.009
    
    [GRAPHIC] [TIFF OMITTED] 40365A1.010
    
    [GRAPHIC] [TIFF OMITTED] 40365A1.011
    
    [GRAPHIC] [TIFF OMITTED] 40365A1.012
    
    [GRAPHIC] [TIFF OMITTED] 40365A1.013
    
    [GRAPHIC] [TIFF OMITTED] 40365A1.014
    
    [GRAPHIC] [TIFF OMITTED] 40365A1.015
    
    [GRAPHIC] [TIFF OMITTED] 40365A1.016
    
    [GRAPHIC] [TIFF OMITTED] 40365A1.017
    
    [GRAPHIC] [TIFF OMITTED] 40365A1.018
    
    [GRAPHIC] [TIFF OMITTED] 40365A1.019
    
    [GRAPHIC] [TIFF OMITTED] 40365A1.020
    
    [GRAPHIC] [TIFF OMITTED] 40365A1.021
    
    [GRAPHIC] [TIFF OMITTED] 40365A1.022
    
    [GRAPHIC] [TIFF OMITTED] 40365A1.023
    
    [GRAPHIC] [TIFF OMITTED] 40365A1.024
    
    [GRAPHIC] [TIFF OMITTED] 40365A1.025
    
    [GRAPHIC] [TIFF OMITTED] 40365A1.026
    
    [GRAPHIC] [TIFF OMITTED] 40365A1.027
    
    [GRAPHIC] [TIFF OMITTED] 40365A1.028
    
    [GRAPHIC] [TIFF OMITTED] 40365A1.029
    
    [GRAPHIC] [TIFF OMITTED] 40365A1.030
    
    [GRAPHIC] [TIFF OMITTED] 40365A1.031
    
    [GRAPHIC] [TIFF OMITTED] 40365A1.032
    
    [GRAPHIC] [TIFF OMITTED] 40365A1.033
    
    [GRAPHIC] [TIFF OMITTED] 40365A1.034
    
    [GRAPHIC] [TIFF OMITTED] 40365A1.035
    
    [GRAPHIC] [TIFF OMITTED] 40365A1.036
    
    [GRAPHIC] [TIFF OMITTED] 40365A1.037
    
    [GRAPHIC] [TIFF OMITTED] 40365A1.038
    
    [GRAPHIC] [TIFF OMITTED] 40365A1.039
    
    [GRAPHIC] [TIFF OMITTED] 40365A1.040
    
    [GRAPHIC] [TIFF OMITTED] 40365A1.041
    
    [GRAPHIC] [TIFF OMITTED] 40365A1.042
    
    [GRAPHIC] [TIFF OMITTED] 40365A1.043
    
    [GRAPHIC] [TIFF OMITTED] 40365A1.044
    
    [GRAPHIC] [TIFF OMITTED] 40365A1.045
    
    [GRAPHIC] [TIFF OMITTED] 40365A1.046
    
    [GRAPHIC] [TIFF OMITTED] 40365A1.047
    
    [GRAPHIC] [TIFF OMITTED] 40365A1.048
    
    [GRAPHIC] [TIFF OMITTED] 40365A1.049
    
    [GRAPHIC] [TIFF OMITTED] 40365A1.050
    
    [GRAPHIC] [TIFF OMITTED] 40365A1.051
    
    [GRAPHIC] [TIFF OMITTED] 40365A1.052
    
    [GRAPHIC] [TIFF OMITTED] 40365A1.053
    
    [GRAPHIC] [TIFF OMITTED] 40365A1.054
    
    [GRAPHIC] [TIFF OMITTED] 40365A1.055
    
    [GRAPHIC] [TIFF OMITTED] 40365A1.056
    
    [GRAPHIC] [TIFF OMITTED] 40365A1.057
    
    [GRAPHIC] [TIFF OMITTED] 40365A1.058
    
    [GRAPHIC] [TIFF OMITTED] 40365A1.059
    
    [GRAPHIC] [TIFF OMITTED] 40365A1.060
    
    [GRAPHIC] [TIFF OMITTED] 40365A1.061
    
    [GRAPHIC] [TIFF OMITTED] 40365A1.062
    
    [GRAPHIC] [TIFF OMITTED] 40365A1.063
    
    [GRAPHIC] [TIFF OMITTED] 40365A1.064
    
    [GRAPHIC] [TIFF OMITTED] 40365A1.065
    
    [GRAPHIC] [TIFF OMITTED] 40365A1.066
    
    [GRAPHIC] [TIFF OMITTED] 40365A1.067
    
    [GRAPHIC] [TIFF OMITTED] 40365A1.068
    
    [GRAPHIC] [TIFF OMITTED] 40365A1.069
    
    [GRAPHIC] [TIFF OMITTED] 40365A1.070
    
    [GRAPHIC] [TIFF OMITTED] 40365A1.071
    
    [GRAPHIC] [TIFF OMITTED] 40365A1.072
    
    [GRAPHIC] [TIFF OMITTED] 40365A1.073
    
    [GRAPHIC] [TIFF OMITTED] 40365A1.074
    
    [GRAPHIC] [TIFF OMITTED] 40365A1.075
    
    [GRAPHIC] [TIFF OMITTED] 40365A1.076
    
    [GRAPHIC] [TIFF OMITTED] 40365A1.077
    
    [GRAPHIC] [TIFF OMITTED] 40365A1.078
    
    [GRAPHIC] [TIFF OMITTED] 40365A1.079
    
    [GRAPHIC] [TIFF OMITTED] 40365A1.080
    
    [GRAPHIC] [TIFF OMITTED] 40365A1.081
    
    [GRAPHIC] [TIFF OMITTED] 40365A1.082
    
    [GRAPHIC] [TIFF OMITTED] 40365A1.083
    
    [GRAPHIC] [TIFF OMITTED] 40365A1.084
    
    [GRAPHIC] [TIFF OMITTED] 40365A1.085
    
    [GRAPHIC] [TIFF OMITTED] 40365A1.086
    
    [GRAPHIC] [TIFF OMITTED] 40365A1.087
    
    [GRAPHIC] [TIFF OMITTED] 40365A1.088
    
    [GRAPHIC] [TIFF OMITTED] 40365A1.089
    
    [GRAPHIC] [TIFF OMITTED] 40365A1.090
    
    [GRAPHIC] [TIFF OMITTED] 40365A1.091
    
    [GRAPHIC] [TIFF OMITTED] 40365A1.092
    
    [GRAPHIC] [TIFF OMITTED] 40365A1.093
    
    [GRAPHIC] [TIFF OMITTED] 40365A1.094
    
    [GRAPHIC] [TIFF OMITTED] 40365A1.095
    
    [GRAPHIC] [TIFF OMITTED] 40365A1.096
    
    [GRAPHIC] [TIFF OMITTED] 40365A1.097
    
    [GRAPHIC] [TIFF OMITTED] 40365A1.098
    
    [GRAPHIC] [TIFF OMITTED] 40365A1.099
    
    [GRAPHIC] [TIFF OMITTED] 40365A1.100
    
    [GRAPHIC] [TIFF OMITTED] 40365A1.101
    
    [GRAPHIC] [TIFF OMITTED] 40365A1.102
    
    [GRAPHIC] [TIFF OMITTED] 40365A1.103
    
    [GRAPHIC] [TIFF OMITTED] 40365A1.104
    
    [GRAPHIC] [TIFF OMITTED] 40365A1.105
    
    [GRAPHIC] [TIFF OMITTED] 40365A1.106
    
    [GRAPHIC] [TIFF OMITTED] 40365A1.107
    
    [GRAPHIC] [TIFF OMITTED] 40365A1.108
    
    [GRAPHIC] [TIFF OMITTED] 40365A1.109
    
    [GRAPHIC] [TIFF OMITTED] 40365A1.110
    
    [GRAPHIC] [TIFF OMITTED] 40365A1.111
    
    [GRAPHIC] [TIFF OMITTED] 40365A1.112
    
    [GRAPHIC] [TIFF OMITTED] 40365A1.113
    
    [GRAPHIC] [TIFF OMITTED] 40365A1.114
    
    [GRAPHIC] [TIFF OMITTED] 40365A1.115
    
    [GRAPHIC] [TIFF OMITTED] 40365A1.116
    
    [GRAPHIC] [TIFF OMITTED] 40365A1.117
    
    [GRAPHIC] [TIFF OMITTED] 40365A1.118
    
    [GRAPHIC] [TIFF OMITTED] 40365A1.119
    
    [GRAPHIC] [TIFF OMITTED] 40365A1.120
    
    [GRAPHIC] [TIFF OMITTED] 40365A1.121
    
    [GRAPHIC] [TIFF OMITTED] 40365A1.122
    
    [GRAPHIC] [TIFF OMITTED] 40365A1.123
    
    [GRAPHIC] [TIFF OMITTED] 40365A1.124
    
    [GRAPHIC] [TIFF OMITTED] 40365A1.125
    
    [GRAPHIC] [TIFF OMITTED] 40365A1.126
    
    [GRAPHIC] [TIFF OMITTED] 40365A1.127
    
    [GRAPHIC] [TIFF OMITTED] 40365A1.128
    
    [GRAPHIC] [TIFF OMITTED] 40365A1.129
    
    [GRAPHIC] [TIFF OMITTED] 40365A1.130
    
    [GRAPHIC] [TIFF OMITTED] 40365A1.131
    
    [GRAPHIC] [TIFF OMITTED] 40365A1.132
    
    [GRAPHIC] [TIFF OMITTED] 40365A1.133
    
    [GRAPHIC] [TIFF OMITTED] 40365A1.134
    
    [GRAPHIC] [TIFF OMITTED] 40365A1.135
    
    [GRAPHIC] [TIFF OMITTED] 40365A1.136
    
    [GRAPHIC] [TIFF OMITTED] 40365A1.137
    
    [GRAPHIC] [TIFF OMITTED] 40365A1.138
    
    [GRAPHIC] [TIFF OMITTED] 40365A1.139
    
    [GRAPHIC] [TIFF OMITTED] 40365A1.140
    

</pre></body></html>
